<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2018

                              ----------                              


                        THURSDAY, JUNE 29, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 10:00 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Shaheen, Boozman, Capito, 
Manchin, and Van Hollen.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF ROBERT M. LIGHTFOOT, JR., ACTING 
            ADMINISTRATOR

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The hearing will come to order. I'm pleased 
to welcome Acting Administrator Robert Lightfoot to the 
Commerce, Justice, and Science Appropriations Subcommittee 
hearing to examine NASA's fiscal year 2018 budget request.
    Mr. Lightfoot and I worked well together during his tenure 
as the Director of NASA's Marshall Space Flight Center in 
Huntsville, Alabama.
    Mr. Lightfoot, thank you for serving as NASA's leader 
during this time of change, and I appreciate you joining us 
here today.
    The administration has proposed a fiscal year 2018 budget 
of $19.1 billion for NASA, which is a reduction of 2.9 percent 
from the current year level. And while this overall cut is less 
than many other agencies have experienced in the President's 
budget request, it still reflects a significant reduction of 
$561 million.
    This budget request attempts to navigate a challenging 
fiscal environment, but would disrupt ongoing missions and 
delay future exploration for years to come. There are proposals 
to cut science missions and to eliminate the entire Education 
Directorate using the rationale that NASA could do without 
these programs under a reduced budget. Other research programs 
are left with insufficient financial resources, which will make 
it impossible for NASA to meet its own management plans and 
launch schedules.
    For human exploration, the current administration picks up 
where the previous administration left off, by projecting a 
lofty vision for space while providing a budget that keeps the 
vision from leaving Earth.
    The Space Launch System and the Orion crew capsule are 
designed to break our human space program free of its decade's 
long tether to low Earth orbit, eventually sending our 
astronauts to Mars. In addition, SLS will provide NASA with a 
versatile platform to deliver planetary robotic science and 
space-based astronomy missions.
    SLS is the vehicle that will make possible many of NASA's 
goals to push the boundaries of exploration. I look forward to 
the initial launch of SLS and will work to see that a crew 
launch will follow soon thereafter.
    I believe we must have an accurate budget to reflect these 
launch decisions and to meet our Nation's exploration goals. If 
other pieces necessary for exploration are not ready, we will 
lose time and waste funds in the near term that could be used 
for other important activities down the road.
    NASA, I believe, must ensure that the rigor with which it 
reviews its own missions is applied to all of its activities 
and avoid pressure to send astronauts to space at any cost.
    There is growing sentiment that NASA should change the way 
it does business, that it should be a buyer of commercial 
transportation services. Were it not for billions in 
development funds from NASA acting as venture capital, there 
would be no companies attempting to one day take crews to the 
Space Station.
    Even with this investment, the companies NASA will use for 
commercial crew services are behind in schedule. The program 
has increased in cost, and independent observers cite the 
inability of our partners to meet contracted safety standards.
    And while risk is inherent in anything NASA chooses to 
undertake, there is no replacement for proper analysis and 
reasonable precaution when lives and the resources of the 
Nation are at stake.
    When it comes to agency operations, I am encouraged to see 
the investments in information technology and cybersecurity in 
this proposed budget. NASA is very popular with the public and 
also has a significant amount of data for scientists to use in 
understanding the universe around us. I believe it's incumbent 
that NASA be able to share its findings, but the agency must 
also maintain a secure cyber environment for operations.
    NASA's innovative ideas often involve significant risk and 
also require significant investment. This subcommittee has 
strived to provide balanced funding to the overall NASA 
portfolio while also ensuring that ongoing activities are 
appropriately funded to accomplish NASA's missions.
    As with any administration, the proposed budget represents 
a snapshot in time based on decisions made with the most 
relevant information available. As this subcommittee moves 
ahead to produce our annual spending bill, I look forward to 
working with you to achieve the appropriate balance for NASA's 
missions.
    Senator Shaheen.

                  STATEMENT OF SENATOR JEANNE SHAHEEN

    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you, Administrator Lightfoot, for being here this 
morning. This is my first NASA hearing, so I'm especially 
pleased to hear your comments and testimony.
    And I want you to know, Mr. Chairman, that coming from a 
State like Alabama, where you have NASA facilities, and you 
have a history of space as part of your economy, you may not 
think of New Hampshire as a space State, but we have our own 
claim to space. The first American in space, Alan Shepard is 
from Derry, New Hampshire. And, of course, the teacher in 
space, Christa McAuliffe, who died so tragically in the 
Challenger accident, was from New Hampshire. And today, New 
Hampshire companies are helping to supply NASA with technology 
to improve both low Earth orbit and deep space exploration.
    New Hampshire is also a leader in space weather, designing, 
building, and operating major instruments on NASA satellites to 
study solar physics. The New Hampshire Space Grant is inspiring 
a love of science in K-12 students and helping undergraduate 
and graduate students through scholarships, fellowships, and 
internships. And through research grants and education programs 
like Space Grant and EPSCoR, every State is a space State.
    Unfortunately, the fiscal year 2018 budget request for NASA 
cuts many of the programs that keep the agency connected to the 
rest of America. It eliminates the NASA Education Mission 
Directorate, including the Space Grant and EPSCoR. NASA 
Education programs have had challenges, but I don't think that 
the way to meet those challenges is to eliminate the programs.
    Mr. Lightfoot, when you and I met in my office, we agreed 
that one of NASA's most important jobs is to help kids learn to 
love science and technology. And I look forward to working with 
you and the chairman to ensure that NASA can continue to help 
inspire and train the next generation of technical workers, 
whether they're building rockets or building American industry 
and products in the private sector.
    Overall, NASA's budget request is $19.1 billion, a cut of 3 
percent below the fiscal year 2017 level, but those cuts 
weren't applied equally. In addition to eliminating education 
programs, the budget proposes deep cuts to next-generation 
transportation systems and Earth science, items that are 
priorities of this subcommittee because they help NASA reach 
the agency's calling to explore, discover, teach, and inspire.
    Chairman Shelby has discussed the need to fund Orion and 
the Space Launch System, the SLS, needed to send humans beyond 
low-Earth orbit. So I'll take a minute and talk about Earth 
science.
    When it comes to climate change, NASA's job is to observe 
the Earth, to tell us factually what is happening to our 
planet. NASA doesn't say why Earth's climate is changing or 
what policies we need to take in response, but we do know from 
surveys published by the University of New Hampshire's Carsey 
School of Public Policy this spring that 73 percent of 
Americans say they trust science agencies such as NASA for 
information about climate change, nearly twice as many as trust 
friends and family or political leaders. It's a solemn 
responsibility for NASA. Yet NASA's 2018 budget request cuts 
Earth observation by more than 8 percent, ending five missions.
    Now, closing our eyes to what's happening to our planet 
doesn't mean that it's not happening, and people in my State of 
New Hampshire have no doubt that the climate is changing 
because in the Granite State, we see it every day. The steady 
increase in yearly temperatures, the rise in annual 
precipitation are already affecting our tourism and outdoor 
recreation economy that contributes more than $4 billion a year 
to New Hampshire. This isn't the time to cut back on NASA's 
Earth observations.
    I look forward to working with Chairman Shelby and my 
colleagues on the subcommittee to ensure that NASA continues 
progress on high-priority Earth science missions and research.
    And, finally, I want to end by noting that NASA contracting 
remains on the Government Accountability Office's High Risk 
List, where it has been listed since 1990. Now, we all 
recognize how challenging NASA's programs are and how important 
your technological development is, but the quality of NASA's 
program management needs to match the quality of its science, 
and I think that's the point of the GAO continuing to list 
NASA.
    Again, thank you for testifying today.
    And thank you, Mr. Chairman, for holding this hearing.
    Senator Shelby. Administrator Lightfoot, welcome again to 
the subcommittee. Your written testimony will be made part of 
the hearing record. You can proceed as you wish.

             SUMMARY STATEMENT OF ROBERT M. LIGHTFOOT, JR.

    Mr. Lightfoot. Well, thank you both for having me, Mr. 
Chairman and Members of the subcommittee. I'm pleased to have 
the opportunity to discuss NASA's fiscal year 2018 budget 
request. We appreciate the subcommittee's support, especially 
your bipartisan commitment, to the constancy of purpose for 
NASA. The fiscal year 2017 Consolidated Appropriations Act, and 
emergency supplemental funding for Kennedy Space Center and 
Michoud Assembly Facility, are concrete contributions to this 
vital continuity. And we appreciate the subcommittee's hard 
work on NASA's behalf.
    NASA's historic and enduring purpose can be summarized in 
three major strategic thrusts: discover, explore, and develop. 
These correspond to our missions of scientific discovery, 
exploration, and new technology development in aeronautics and 
space.
    NASA's missions inspire the next generation. They inject 
innovation into the national economy, they provide critical 
information to address national challenges, and they support 
global engagement and international leadership.
    The fiscal year 2018 request is $19.1 billion, and it 
supports a vigorous program that leads the world in space and 
aeronautics. While we had to make some difficult decisions with 
regard to Earth Science and Education, this remains a good 
budget for NASA as we move forward.
    In Aeronautics, NASA advances U.S. global leadership by 
developing and transferring key enabling technologies. In 
fiscal year 2018, we will award a contract for detailed 
aircraft design, build, and validation of a Low Boom Flight 
Demonstrator, which will demonstrate quiet overland supersonic 
flight, opening a new market to U.S. industry.
    In Science, NASA is currently using 20 spaceborne missions 
to study the Earth as a system, which supply Earth science data 
for weather forecasting, farming, water management, disaster 
response, and even disease early warning. This request supports 
two new missions by the end of 2018: the GRACE Follow-On 
mission, which will track water across the planet by precisely 
measuring the Earth's gravitational field; and ICESat-2, which 
measures ice sheets, clouds, and vegetation canopy heights.
    In September, Cassini will make the final of a series of 22 
daring dives through the 1,500-mile-wide gap between the planet 
Saturn and its rings as part of its ``Grand Finale'' end-of-
mission maneuvers.
    OSIRIS-REx will conduct a search for elusive objects known 
as Earth-Trojan asteroids on its journey to the asteroid Bennu, 
and in 2023 will return a sample from Bennu back to Earth.
    We launch the Mars InSight Lander in May of 2018 to study 
the interior structure of Mars, and are on track to launch the 
next Mars rover mission in 2020.
    The James Webb Space Telescope continues on schedule for 
its 2018 launch. Webb will be a giant leap forward in our quest 
to understand the universe and our origins.
    In 2018, we will launch the recently named Parker Solar 
Probe on a mission to fly closer to the Sun than any previous 
mission. Parker will join 18 missions dedicated to studying our 
nearest star.
    NASA's Space Technology request includes investments in 
deep space optical communications, high-power solar electric 
propulsion technologies, and advanced materials.
    In late 2017, both the Green Propellant Infusion Mission 
spacecraft and the Deep Space Atomic Clock instrument will be 
delivered to orbit.
    The International Space Station, our first step on the road 
to deep space exploration, is delivering the knowledge and 
technology we need to keep our astronauts safe, healthy, and 
productive on deep space missions of increasing duration.
    Working with commercial crew partners, NASA plans to return 
crew launch capability to American soil in 2018. We're also 
continuing development on the Space Launch System rocket, the 
Orion crew capsule, exploration ground systems, and the 
technologies and research needed to support a robust human 
exploration program.
    In 2019, we plan to launch an uncrewed exploration mission 
using the new heavy-lift launch vehicle and the Orion 
spacecraft on a mission to lunar orbit. A crewed mission, EM-2, 
will follow not later than 2023.
    In the early-to-mid 2020s, we will develop and deploy 
critical life support and habitation capabilities leading to 
crewed missions beyond the Earth-Moon system. Missions launched 
on the SLS in the 2020s will establish the capability to 
operate safely and productively in deep space.
    With your continued support, we look forward to extending 
human presence into space, exploring potentially habitable 
environments around the solar system, deepening our 
understanding of our home planet, and pushing our observations 
of the universe back to the time when the first stars were 
formed, and opening the space frontier.
    Mr. Chairman, I will be pleased to respond to your 
questions and those of other Members of the subcommittee.
    [The statement follows:]
             Prepared Statement of Robert M. Lightfoot, Jr.
    Mr. Chairman and Members of the subcommittee, I am pleased to have 
this opportunity to discuss NASA's fiscal year 2018 budget request. As 
the Agency approaches its 60th anniversary in 2018, the requested 
budget will maintain NASA's place as the global leader in space. We 
appreciate the subcommittee's support, and have been heartened by the 
frequently expressed bipartisan commitment to constancy of purpose for 
NASA, particularly as NASA's goals extend over decades. Beyond these 
expressions of support, the NASA Transition Authorization Act of 2017 
and the Fiscal Year 2017 Consolidated Appropriations Act represent 
concrete contributions to that continuity, and we appreciate the 
subcommittee's hard work on NASA's behalf. The fiscal year 2018 budget 
request of $19.1 billion reflects the continuity of mission that is 
vital to our continued success.
    NASA's historic and enduring purpose can be summarized in three 
major strategic thrusts: Discover, Explore, and Develop. These 
correspond to our missions of scientific discovery, missions of 
exploration, and missions of new technology development in aeronautics 
and space systems. NASA is focused on these missions, but we never lose 
sight of the other contributions that our unique achievements make 
possible. NASA missions inspire the next generation, inject innovation 
into the national economy, provide critical information needed to 
address national challenges, and support global engagement and 
international leadership. As the President has said, American 
footprints on distant worlds are not too big a dream. NASA is executing 
programs, step by step, to make this dream, and the broader quest to 
explore and understand the universe, a reality.
    The missions that deliver these benefits are on track for some 
significant milestones in the coming years. The Parker Solar Probe, 
Transiting Exoplanet Survey Satellite (TESS), and the James Webb Space 
Telescope are on track to launch in 2018, and a new Mars rover is on 
pace for a 2020 launch. The first of a new series of experimental 
aircraft (X-planes) will fly in 2021 to begin investigating low boom 
supersonic flight. Working with commercial partners, NASA will fly 
astronauts on the first new crew transportation systems in a generation 
from American soil in 2018. We are continuing the development of solar 
electric propulsion for use on future human and robotic missions. NASA 
is fabricating and assembling the systems to launch humans into lunar 
orbit not later than 2023, as NASA works to open the space frontier. 
NASA's fiscal year 2018 request supports progress toward these major 
milestones as part of the diverse portfolio of work the Agency executes 
as we explore, discover, and develop on behalf of the American people.
                                science
    NASA uses the vantage point of space to achieve--with the science 
community and our domestic and international partners--a deep 
scientific understanding of our home planet, the Sun and its effects on 
the solar system, other planets and solar system bodies, our galactic 
neighborhood, and the universe beyond. We focus our research on three 
overall, interdisciplinary objectives: (1) Safeguarding and improving 
life on Earth, (2) Searching for life elsewhere, and (3) Expanding our 
knowledge through research from here at home into the deep universe. 
NASA's fiscal year 2018 budget requests $5,712 million for NASA's 
Science program, including $1,754 million for Earth Science, $1,930 
million for Planetary Science, $817 million for Astrophysics, $534 
million for the James Webb Space Telescope, and $678 million for 
Heliophysics.
    This budget includes a new Science-Mission-Directorate-wide 
initiative to use small, less expensive satellites to advance selected 
high-priority science objectives in a cost-effective manner. This 
initiative will implement recommendations from the National Academy of 
Sciences, which concluded that, due to recent technological progress, 
these small satellites are suitable to address such science goals. All 
four science themes, to a varying degree, will focus technology 
development on CubeSats/SmallSats and targeted science missions to 
exploit this value. The initiative will also provide partnership 
opportunities between commercial partners, international counterparts, 
and NASA and further leverage and align with investments made within 
NASA.
    NASA has a unique capability to develop and launch satellite 
missions to study Earth from space. In addition to designing and flying 
its own science missions, NASA develops weather satellites for NOAA and 
Landsat satellites for USGS. NASA Earth Science uses its 20 coordinated 
spaceborne missions, as well as suborbital and airborne platforms, to 
understand the Earth as an integrated system. Environmental data 
products derived from these observations are used in a range of real-
world applications, including weather forecasts, agricultural 
production, water management, disease early warning, environmental 
trends, sea-level change and guiding responses to natural disasters. 
NASA's budget request of $1.8 billion enables a strong, stable program 
that continues these essential functions, and allows NASA to maintain 
its many public-private and international partnerships.
    In the past year, NASA has successfully launched innovative 
satellites and spaceborne instruments, including the Cyclone Global 
Navigation Satellite System (CYGNSS) small-satellite constellation, two 
new instruments on the International Space Station (ISS), and several 
CubeSats. CYGNSS, a constellation of eight small satellites, was 
launched on December 15, 2016. Using reflected Global Positioning 
System (GPS) signals from the ocean surface, these satellites make 
first-ever, frequent measurements of winds and air-sea interactions in 
evolving hurricanes and tropical storms, providing insight into how 
these storms rapidly intensify. CYGNSS science data will be available 
for use and evaluation during the 2017 Atlantic hurricane season.
    Looking forward, the fiscal year 2018 request advances the Decadal 
Survey recommendation to ensure an ongoing vital fleet of research 
satellites to support science and applications. Recent highlights 
include the completion, launch, and initial operations of the Gravity 
Recovery and Climate Experiment Follow-on (GRACE-FO) mission. GRACE-FO 
will continue to track water across the planet and provide measurements 
used operationally in national drought monitoring products. Launch of 
GRACE-FO will occur in late 2017 or early 2018. Also in development, 
and on track for launch in the fourth quarter of calendar year 2018, is 
the Ice, Cloud, and land Elevation Satellite-2 (ICESat-2), which will 
measure ice sheet topography, sea ice thickness, cloud and aerosol 
heights, and vegetation canopy heights.
    Landsat missions have provided the longest continuous, consistently 
processed set of global satellite measurements of the Earth--in 2018 
this record will extend to 46 years. This budget request includes full 
funding for Landsat 9, a near-copy of Landsat 8, which is on track and 
targeted for launch in 2021.
    Landsat 9, a collaboration between NASA and the USGS, is part of 
the overall Sustainable Land Imaging (SLI) architecture that will 
provide continuous, global land imaging through 2035. These and other 
new missions, combined with those now in orbit, will allow NASA to 
maintain a robust Earth Science program moving forward.
    The request includes a reduction of $167 million from the Fiscal 
Year 2017 Consolidated Appropriations level for Earth Science. These 
savings are accomplished by cancelling three missions in development as 
well as eliminating support for low-priority NASA instruments on NOAA's 
Deep Space Climate Observatory (DSCOVR) mission and reducing funding 
for Earth Science research grants. The reduction re-balances NASA's 
Science portfolio while minimizing impacts to operating Earth Science 
missions, and focuses on priorities of the science and applications 
communities.
    With this year's budget request of $1.9 billion for Planetary 
Science, NASA continues to explore our solar system to help answer 
fundamental questions about our home and destiny in the universe, and 
to explore whether there is life beyond Earth. Planetary Science 
missions are exploring and operating throughout the solar system. 
Missions such as the Lunar Reconnaissance Orbiter at our Moon, as well 
as the rovers and orbiters at Mars, are informing us about our closest 
neighbors. Adding to our missions at Mars, the InSight (Interior 
Exploration using Seismic Investigations, Geodesy and Heat Transport) 
lander will be launched in May 2018 to land on the surface in November. 
InSight is designed as a seismic and heat flow subsurface probe that 
will study the interior structure of Mars along with understanding its 
present-day level of global activity.
    Further out in the solar system, NASA's Juno spacecraft achieved a 
first-ever polar orbit at Jupiter last July, and has already shown that 
Jupiter's magnetic fields are different and possibly more complicated 
than originally thought. NASA's New Horizons mission completed a 
successful flyby of Pluto and is more than halfway to its next target, 
the Kuiper Belt Object 2014 MU69. Meanwhile, the OSIRIS-REx (Origins, 
Spectral Interpretation, Resource Identification, Security-Regolith 
Explorer) mission conducted a search for elusive objects known as 
Earth-Trojan asteroids while on its journey to the asteroid Bennu, 
arriving in August 2018.
    After 13 years orbiting Saturn, our Cassini spacecraft has begun a 
series of 22 daring dives through the 1,500-mile-wide gap between the 
planet and its rings as part of the mission's ``Grand Finale'' end-of-
mission maneuvers. When Cassini makes its final plunge into Saturn's 
atmosphere on September 15, it will send data from several 
instruments--most notably, data on the atmosphere's composition--until 
the very end of this highly successful mission.
    With support from the fiscal year 2018 budget request, NASA is 
continuing to develop our new Mars 2020 rover and Europa Clipper 
mission which will further the search for life beyond Earth. In January 
2017, NASA selected two new Discovery missions, named Lucy and Psyche; 
these missions will expand our knowledge of asteroids and small bodies 
within the solar system.
    NASA's Astrophysics program continues to operate the Hubble, 
Chandra, Spitzer, Fermi, Kepler, and Swift space telescopes, and the 
Stratospheric Observatory for Infrared Astronomy (SOFIA) airborne 
observatory, missions that together comprise an unrivaled resource for 
the study of our universe. NASA's next major Astrophysics mission, the 
James Webb Space Telescope (Webb), continues on schedule for its 
October 2018 launch and remains within budget. Webb will be a giant 
leap forward in our quest to understand the universe and our origins. 
The telescope will examine every phase of cosmic history: from the 
first luminous glows after the Big Bang to the formation of galaxies, 
stars, and planets, to the evolution of our own solar system. During 
fiscal year 2017, the combined Webb telescope and instrument unit will 
be tested at the Johnson Space Center, and with the fiscal year 2018 
request, NASA will integrate this combination onto the spacecraft and 
prepare it for launch.
    NASA will also complete the Transiting Exoplanet Survey Satellite 
(TESS) for launch in 2018. TESS will extend the pioneering exoplanet 
discoveries of the Kepler Space Telescope by looking for rocky 
exoplanets orbiting the nearest and brightest stars in the sky in time 
for Webb to conduct follow-up observations to search for markers of 
potential habitability. During fiscal year 2018, NASA will continue 
formulation of the Wide-Field Infrared Survey Telescope (WFIRST). 
NASA's next Astrophysics Small Explorer, the Imaging X-Ray Polarimetry 
Explorer (IXPE), will continue development in fiscal year 2018 for an 
expected launch in 2021.
    NASA's Heliophysics program operates 18 active missions comprising 
28 spacecraft, called the Heliophysics System Observatory (HSO), to 
understand the Sun and its interactions with Earth, the solar system 
and the interstellar medium, including space weather. NASA continues to 
gain important insight from the HSO, including new observations from 
the Magnetospheric Multiscale (MMS) Mission, which recently celebrated 
its second year in space this March. Later this year, NASA is looking 
forward to the launch of its Ionospheric Connection (ICON) mission, 
which will investigate the roles of solar forces and Earth's weather 
systems that drive extreme and unpredicted variability in the 
ionosphere. The fiscal year 2018 request supports the continued 
development of the Parker Solar Probe and the Global-scale Observations 
of the Limb and Disk (GOLD) missions, both planned for launch in 2018. 
The Parker Solar Probe will fly closer to the Sun than any previous 
mission to study its outer atmosphere. GOLD, to be hosted on a 
commercial communications satellite, will measure densities and 
temperatures in Earth's thermosphere and ionosphere to improve our 
understanding and predictive capabilities for activity in this region, 
which is of crucial importance for space weather. The request will also 
enable the continued development of the critical instruments for the 
NASA-European Space Agency (ESA) Solar Orbiter Collaboration mission. 
Finally, NASA is continuing to implement the scientific community's 
priorities, identified in the latest Decadal Survey, including the 
recently announced Interstellar Mapping and Acceleration Probe (IMAP) 
opportunity as part of the Solar Terrestrial Probes Program.
    By funding fundamental basic and targeted research opportunities, 
NASA will continue to develop and improve predictive models through 
enhanced understanding of the science of space weather. NASA, in 
coordination with other national and international agencies, will 
further the transition of research models to operations and seek to 
improve models already in operation through collaboration with 
operators, model developers, and researchers. Better understanding of 
space weather could help protect our technological infrastructure on 
Earth, including the Nation's electrical grid.
                              aeronautics
    NASA's Aeronautics Research program advances U.S. global leadership 
by developing and transferring key enabling technologies to make 
aviation safer, more efficient, and more environmentally friendly. With 
a request of $624 million for Aeronautics, the fiscal year 2018 budget 
takes the next significant step in the New Aviation Horizons 
initiative--a bold series of X-planes--and systems demonstrations to 
support the goals of enabling revolutionary aircraft and improving the 
efficiency of the national air transportation system. With the fiscal 
year 2018 request, NASA will demonstrate and validate transformative 
concepts and technologies as integrated systems in flight to meet the 
most challenging needs of aviation. Specifically, in fiscal year 2018, 
NASA will award a contract for detailed aircraft design, build, and 
validation of the first X-plane, a Low Boom Flight Demonstrator (LBFD) 
that will demonstrate quiet overland supersonic flight and open a new 
market to U.S. industry. The LBFD X-plane is expected to achieve first 
flight by fiscal year 2021, initially focused on flights to ensure safe 
operations and then proceeding to its sonic boom noise testing flight 
campaign. NASA has laid the groundwork for this initiative through 
years of research at the component level, through computer modeling, 
and with ground tests, and will now move on to critical flight tests. 
NASA is also laying the groundwork through tests and studies for a 
second X-plane, a subsonic flight demonstrator notionally scheduled for 
a first flight in fiscal year 2026 that will show revolutionary 
improvements to fuel efficiency and airport noise to reinforce U.S. 
technological leadership in the next generation of commercial aircraft.
    NASA's request for Aeronautics will ensure investment in developing 
revolutionary tools and technologies ranging from hybrid and all-
electric aircraft, autonomy, advanced composite materials and 
structures, data mining, verification and validation of complex 
systems, and revolutionary vertical lift vehicles, to enabling further 
advances for transformative vehicle and propulsion concepts that will 
address a broad array of our aviation industry's needs. NASA will 
continue to cultivate multi-disciplinary, revolutionary concepts to 
enable aviation transformation and harness convergence in aeronautics 
and non-aeronautics technologies to create new opportunities in 
aviation. In partnership with industry, NASA will explore technology 
advancements such as advanced lightweight aircraft structures to enable 
higher performing, more efficient subsonic aircraft configurations.
    NASA will conduct flight demonstrations in a new configuration of 
the X-57 Maxwell, a general aviation-scale aircraft that will test 
highly integrated distributed electric propulsion technology. These 
tests represent a crucial step in the flight test process as 
conventional-fuel engines will be replaced with electric motors and 
electrical storage and power distribution systems, providing real-world 
data on all-electric flight. NASA will continue to advance the state of 
the art in hypersonic flight through technology demonstrations and 
computational and design tool development in partnership with other 
Federal agencies, leveraging flight test data to support NASA's 
research while simultaneously reducing risk and enhancing the 
effectiveness of other agencies' programs. NASA's efforts are aimed at 
reducing the uncertainty in computational models and ground testing, as 
well as flight testing operations. Overcoming these barriers will 
enable more effective technology risk tools, allowing for a better 
understanding of the true potential of future hypersonics technologies.
    NASA continues to advance research and development into the air 
traffic management system to realize the Federal Aviation 
Administration's (FAA's) full vision for the Next Generation Air 
Transportation System (NextGen). NASA has recently begun a series of 
major flight tests to demonstrate significantly more efficient arrival 
and departure operations in full partnership with FAA and industry. 
Moving key concepts and technologies from the laboratory into the field 
through demonstrations ultimately will benefit the public by increasing 
capacity and reducing the total cost of air transportation. NASA will 
develop and demonstrate innovative solutions that enable use of new 
vehicle technologies through proactive mitigation of risks in 
accordance with target levels of safety, and provide analyses and 
safety assessments supporting use of analytical models in the 
specification, design, and analysis of complex, safety-critical 
aviation systems. NASA will also continue to lead the world for 
enabling safe Unmanned Aircraft Systems (UAS) operations by 
demonstrating key technologies that will integrate UAS operations in 
the National Air Space, as well as realize safe, low-altitude 
operations of small UAS through development of the UAS Traffic 
Management concept, or UTM.
    Across all of these research areas, NASA investments will nurture 
U.S. university leadership in innovation that will foster and train the 
future workforce, and leverage non-aerospace technology advancements. 
Specifically, NASA will execute the first competitive University 
Leadership Initiative awards under the University Innovation Challenge 
project. These awards will sponsor research by university leaders who 
have independently analyzed the technical barriers inherent in 
achieving the Aeronautics Research Mission Directorate strategic 
outcomes, and who have proposed multi-disciplinary technical challenges 
along with supporting activities to address those barriers.
                            space technology
    NASA's fiscal year 2018 request includes $679 million for Space 
Technology to conduct rapid development and incorporation of 
transformative space technologies that will create opportunities for 
the U.S. aerospace industry, enable NASA's future missions, and 
increase the capabilities of other U.S. agencies. NASA's Space 
Technology program has developed a diverse portfolio creating a 
technology pipeline to solve the most difficult challenges in space.
    Technology drives exploration by continuing the maturation of 
enabling technologies for future human and robotic exploration 
missions, including deep space optical communications to return more 
data and improve operations, high power solar electric propulsion 
technologies for highly efficient in-space transit, high performance 
spaceflight computing, autonomous and hazard avoidance landing, extreme 
environment solar power, and advanced materials to improve rover 
mobility performance at low temperatures.
    NASA will continue to prioritize ``tipping point'' technologies and 
early-stage innovation with more than 600 awards to industry and small 
businesses, private innovators, and academia to spark new ideas to 
support the broader U.S. aerospace and high tech sectors as well as for 
the benefit of NASA. As we complete these efforts, appropriate 
technologies will be transferred and commercialized to benefit a wide 
range of users, ensuring that our Nation realizes the full economic 
value and societal benefit of these innovations. Space Technology's 
partnerships engage more than 380 companies and continue to be a major 
priority in 2018.
    The Green Propellant Infusion Mission spacecraft and the Deep Space 
Atomic Clock instrument will both be delivered to orbit as part of the 
U.S. Air Force Space Technology Program-2 mission aboard a SpaceX 
Falcon 9 Heavy booster slated for late 2017. The Green Propellant 
Infusion Mission will demonstrate a propulsion system using a 
propellant that is less toxic and has approximately 40 percent higher 
performance by volume than hydrazine, and which will reduce spacecraft 
processing costs. The Deep Space Atomic Clock demonstrates navigational 
accuracy improvements (with 50 times more accuracy than today's best 
navigation clocks) for deep space and improved gravity science 
measurements.
    With the fiscal year 2018 request, the Restore-L satellite 
servicing project will be restructured to reduce its cost and support a 
nascent commercial satellite servicing industry. This project will 
continue the development of key technologies, including rendezvous and 
proximity operations sensors, propellant transfer systems, and other 
robotic tools that will enhance and enable future NASA science and 
exploration missions. NASA is also pursuing a potential collaboration 
with the Defense Advanced Research Projects Agency and industry to most 
effectively advance satellite servicing technologies and ensure broad 
commercial application. NASA is continuing the Robotic Refueling 
Mission 3 that will focus specifically on servicing cryogenic fluid and 
xenon gas interfaces, which will support future scientific missions as 
humans extend their exploration farther into our solar system. Building 
on the Robotic Refueling Mission technology demonstrations on ISS, 
Space Technology will advance servicing technologies and partner with 
domestic private enterprise to commercialize the results, establishing 
a new U.S. industry.
    NASA continues development of high-powered solar electric 
propulsion. This technology is scalable, widely applicable to human and 
robotic missions, and is a critical component of NASA's future 
exploration plans. In fiscal year 2018, NASA plans to complete ground 
testing of the Solar Electric Propulsion engineering development units 
for magnetically-shielded Hall effect thrusters. We will begin 
fabrication of spaceflight-qualified hardware scheduled for delivery in 
2019.
    Upon completion of hardware build, the Laser Communications Relay 
Demonstration project will start integration and test to support a 
fiscal year 2019 Launch Readiness Date. The Mars Oxygen In-Situ 
Resource Utilization Experiment and Terrain Relative Navigation 
projects will complete hardware development, and will enter into 
integration and test to support the Mars 2020 schedule. In addition, 
the Mars Environmental Dynamics Analyzer and Mars Entry, Descent, and 
Landing Instrument 2 will successfully complete technology development, 
and be delivered for Mars system integration and test on the Mars 2020 
robotic lander mission.
    NASA will also complete testing of a 1kW fission reactor that could 
aid in a potential future design of a 10kW-class system. Fission 
reactor systems have the potential to provide abundant energy for 
surface exploration. Full ground testing at design temperatures is 
planned for early fiscal year 2018 at the Nevada Nuclear Security Site.
                    human exploration and operations
    The fiscal year 2018 request includes $3,934 million for 
Exploration, with $3,584 million for Exploration Systems Development, 
and $350 million for Exploration Research and Development. The fiscal 
year 2018 request also includes $4,741 million for Space Operations, 
including $1,491 million for the International Space Station (ISS), 
$835 million for Space and Flight Support, and $2,415 million for Space 
Transportation--both commercial crew system development and ongoing 
crew and cargo transportation services that resupply the ISS. The 
request provides the necessary resources in fiscal year 2018 to support 
development as planned of the SLS rocket and Orion crew capsule, as 
well as on the technologies and research needed to support a robust 
exploration program. The budget creates new opportunities for 
collaboration with industry on ISS and supports public-private 
partnerships for exploration systems that will extend human presence 
into the solar system.
    The ISS is the first step on the road to deep space exploration, a 
nearby outpost in space where humanity has taken its early steps on its 
journey into the solar system. This unique microgravity laboratory is 
delivering the knowledge and technology we need to keep our astronauts 
safe, healthy, and productive on deep space missions of increasing 
durations. This knowledge and technology are the cornerstones of our 
exploration strategy. Research on the ISS has advanced the fundamental 
biological and physical sciences for the benefit of humanity, improving 
life on Earth, and adding to our understanding of the universe. The ISS 
forms the foundation of the Nation's global leadership in space 
exploration through the ISS International Partnership of five space 
agencies representing 15 nations.
    Under the original Commercial Resupply Services (CRS) contracts, 
our two commercial cargo partners, Space Exploration Technologies 
(SpaceX) and Orbital ATK, are providing cargo deliveries to the ISS. 
Using the space launch vehicles developed in partnership with NASA, 
SpaceX and Orbital ATK have also helped to bring some of the commercial 
satellite launch market back to the U.S. and have reduced commercial 
launch costs. Under new CRS-2 contracts, SpaceX, Orbital ATK, and 
Sierra Nevada Corporation will deliver critical science, research, and 
technology demonstrations to the ISS over 5 years from 2019 through 
2024. Working with our commercial crew partners, SpaceX and the Boeing 
Company, NASA plans to return crew launch capability to American soil 
in 2018. The fiscal year 2018 request provides critical resources in 
this exciting and challenging period as we work with our partners to 
launch the first new U.S. human spaceflight capability in a generation.
    Under the auspices of the ISS National Laboratory, managed by the 
Center for the Advancement of Science In Space (CASIS), NASA and CASIS 
continue to expand research on the ISS sponsored by pharmaceutical, 
technology, consumer product, and other industries, as well as by other 
Government agencies, such as the National Institutes of Health and the 
National Science Foundation. Through CASIS' efforts, the ISS National 
Lab has reached full capacity for allocated crew time and upmass and 
downmass, and is expected to continue at this level of activity for the 
foreseeable future.
    NASA's activities in low Earth orbit (LEO), including research 
aboard ISS and the use of commercial crew and cargo transportation 
services, are encouraging the broader commercial development of LEO. 
The ISS serves as the focal point for NASA's LEO commercialization 
development efforts by enabling private industry to foster new 
markets--such as space tourism or satellite servicing--by developing 
and maturing their own capabilities and services for Government and 
non-Government customers. These new markets could also support 
platforms on which NASA would be only one of many Government and non-
Government customers.
    As we move out beyond LEO, we will employ new deep space systems, 
including the heavy-lift Space Launch System (SLS), Orion crew vehicle, 
the Exploration Ground Systems (EGS) that support them, and new deep 
space habitation capabilities to be developed through public-private 
partnerships and international partnerships.
    NASA plans to launch an initial, uncrewed deep-space mission, 
Exploration Mission-1 (EM-1), in 2019. The mission will combine the new 
heavy-lift SLS with an uncrewed version of the Orion spacecraft on a 
mission to lunar orbit. A crewed mission, EM-2, will follow not later 
than 2023; the fiscal year 2018 budget fully funds the Agency baseline 
commitment schedule for EM-2 and the Orion spacecraft. Missions 
launched on the SLS in the 2020s will establish the capability to 
operate safely and productively in deep space.
    SLS, Orion, and EGS are the critical capabilities for maintaining 
and extending U.S. human spaceflight leadership beyond LEO to the Moon, 
Mars, and beyond. For SLS, the nationwide NASA and industry team has 
completed 5 years of detailed engineering design and is now in large-
scale hardware production and testing for EM-1 and subsequent flights. 
Core Stage hardware is taking shape inside the 43 acres of factory 
floor space at the Michoud Assembly Facility (MAF) in Louisiana (where 
work continues despite a tornado which hit the facility this February), 
while SLS Boosters, Core Stage Engines, and other flight hardware are 
also in production and testing in Alabama, Utah, Mississippi, and 
facilities elsewhere across the country. For Orion, the EM-1 flight 
Crew Module is being welded and outfitted at the Kennedy Space Center 
(KSC), software development and testing continues in Colorado and 
Texas, and the European-provided Service Module structural article has 
successfully completed testing at Plum Brook Station in Ohio. At KSC, 
NASA has completed installation of all ten work platforms in the giant 
Vehicle Assembly Building (each weighing up to 380,000 pounds, aligned 
with pinpoint precision), outfitting continues on the 355-foot-tall 
Mobile Launcher, and historic Launch Pad 39B is being prepared with new 
flame trench bricks and support systems. These are the early steps on a 
journey that leads American astronauts into deep space, permanently.
    The fiscal year 2018 request also includes funding for exploration 
research and development that will make future missions safer, more 
reliable, and more affordable. Among these efforts, NASA is now working 
on the second phase of the Next Space Technologies for Exploration 
Partnerships (NextSTEP), an effort to stimulate deep-space capability 
development across the aerospace industry. Through these initial 
public-private partnerships, NextSTEP partners will provide advanced 
concept studies, technology development projects, and significant 
measurements in key areas, including habitat concepts, environmental 
control and life support systems, advanced in-space propulsion, and 
small spacecraft to conduct missions related to Strategic Knowledge 
Gaps. The NextSTEP efforts are a key component, along with 
international partnerships and NASA technology development, of our 
overall strategy to move into deep space, and NASA intends to perform 
integrated ground testing using habitation capabilities developed by 
the NextSTEP partners in 2018.
    We will continue to investigate approaches for reducing the costs 
of exploration missions to enable a more expansive exploration program.
    With the fiscal year 2018 request, the Asteroid Redirect Mission 
(ARM) is no longer included in NASA's exploration plans, but key work 
done for the mission will be carried forward to support NASA's human 
exploration efforts, particularly in the area of solar electric 
propulsion. In-space power and propulsion and deep space habitation are 
central to future human exploration. Development and deployment of 
these capabilities will be a focus of the early-to-mid 2020s, leading 
to crewed missions beyond the Earth-Moon system, including to the Mars 
system. More details on NASA's plans will be detailed in the 
exploration roadmap requested by the Congress in the NASA Transition 
Authorization Act of 2017.
    The budget request provides for critical infrastructure 
indispensable to the Nation's access and use of space, including Space 
Communications and Navigation (SCaN), Launch Services Program (LSP), 
Rocket Propulsion Testing (RPT), and Human Space Flight Operations 
(HSFO).
                       management and efficiency
    NASA's fiscal year 2018 budget proposes the termination of the 
Office of Education (OE) and its portfolio of programs and projects. 
The Office of Education has experienced significant challenges in 
implementing a focused NASA-wide education strategy, including 
providing oversight and integration of Agency-wide education 
activities. The fiscal year 2018 budget supports the orderly closeout 
and/or transition of these activities needed to comply with Federal 
laws and regulations regarding contracts, grants/cooperative 
agreements, civil servants, records management, and administrative 
infrastructure. While this budget no longer supports the formal OE 
programs, NASA will continue to inspire the next generation through its 
missions and the many ways that our work excites and encourages 
discovery by learners and educators. The Science Mission Directorate 
(SMD) Science, Technology, Engineering, and Mathematics (STEM) Science 
Activation program will continue to focus on delivering SMD content to 
learners of all ages through cooperative agreement awards. NASA does 
not intend to transfer ownership of programs formerly funded by OE to 
SMD, as these activities fall outside the scope and resources of the 
SMD STEM Science Activation program.
    As is noted in the Government Accountability Office's (GAO) 
February, 2017 ``High Risk Series'' report, NASA efforts at improving 
program management and performance for major developments is yielding 
tangible results in the form of improved estimates, and better cost and 
schedule performance. As GAO notes: ``in 2016, overall development cost 
growth for the portfolio of 12 development projects fell to 1.3 percent 
and launch delays averaged 4 months. Both of these measures are at or 
near the lowest levels we have reported since we began our annual 
assessments in 2009'' (these measures exclude Webb, which was 
rebaselined in 2011).
    NASA's Mission Support Directorate directly enables NASA's 
portfolio of missions in aeronautics, space technology, science, and 
space exploration. The fiscal year 2018 request provides the 
operations, tools, equipment, and capabilities to safely operate and 
maintain NASA Centers and facilities and the independent technical 
authority required to achieve program objectives for all NASA missions. 
With installations in 14 States, NASA collectively manages $39 billion 
in constructed assets with an inventory of over 5,000 buildings and 
structures. Our focus is on renewing and sustaining only what is 
crucial to mission success and divesting of unneeded older, costly real 
property to lower the cost of operations.
    NASA is transforming the management of information technology (IT) 
and improving cybersecurity by implementing the results of an internal 
IT Business Services Assessment (BSA) and working to improve compliance 
with the Federal Information Technology Acquisition Reform Act (FITARA) 
and the Federal Information Security Modernization Act (FISMA). Two of 
our key goals are to create a complete inventory of NASA's IT assets 
and better secure NASA's networks. The budget request includes an 
increase of $32 million in cybersecurity and IT management spending, 
which will be used to complete stronger Personal Identity Verification 
(PIV) compliance, mature Security Operation Center (SOC) capabilities, 
improve detection and response to malicious activities, and develop and 
deploy IT Portfolio Management tools and processes. The increase will 
support NASA's efforts to provide the appropriate visibility and 
involvement of the Office of the Chief Information Officer in the 
management and oversight of IT resources across the Agency.
    To maintain critical capabilities and successfully meet current and 
future mission needs, NASA will continue its implementation of an 
Agency Operating Model that involves a disciplined, multi-year effort 
that engages the participation of all nine NASA Centers, the Jet 
Propulsion Laboratory, and four Mission Directorates, as well as NASA 
senior management. The NASA Operating Model seeks to advance best-in-
class capabilities by alignment to recognized Centers; to ensure that 
technical capabilities are matched to mission need; to enable mutual 
dependencies among NASA Centers, programs, and the leadership team to 
meet mission challenges; to build flexibility in NASA's institutional 
resources to support a modern, agile workplace; and to ensure that 
decisionmaking considers the outcomes for the successful performance of 
the Agency as a whole.
                               conclusion
    The program of exploration and discovery we propose to execute with 
the fiscal year 2018 request should be a source of pride to the 
Committee, the Congress, and the American people. With constancy of 
purpose and consistent support from the Congress, we look forward to 
extending human presence into deep space, exploring potentially 
habitable environments around the solar system, deepening our 
understanding of our home planet, pushing our observations of the 
universe back to the time when the first stars were forming, and 
opening the space frontier. While the future benefits of discovery are 
always difficult to predict, our past and present give us confidence 
that the resources we are requesting represent an investment that will 
return to the Nation multiplied many times.
    Mr. Chairman, I would be pleased to respond to your questions and 
those of other Members of the subcommittee.

    Senator Shelby. Thank you very much.
    I will first recognize Senator Manchin. He has a conflict 
in schedule.
    Senator Manchin. Let me thank the Chairman and the Ranking 
Member very much for their consideration.
    Administrator Lightfoot, over many decades my State of West 
Virginia has developed an aerospace Center of Excellence. After 
all, I think you know we're the home of the State of the Rocket 
Boys, the star of the recent film Hidden Figures with Katherine 
Johnson. She's a West Virginia State College graduate from 
White Sulfur Springs. And we are proud to have your NASA 
Independent Verification and Validation Facility, the NOAA, a 
consolidated backup for its operational satellites, the 
commercial sector, such as Orbital ATK, Lockheed Martin, and 
others.
    Our own West Virginia University supports NASA heliophysics 
work, the NASA Restore-L mission, and until recently, the 
Asteroid Redirect Mission. It's hard to believe that we do all 
those things and people sometimes forget. I like to refer to 
this grouping as an ecosystem of technology that supports one 
another, the region, and the Nation.
    This has been the result of hard work from Senators Byrd 
and Rockefeller, Congressman Mollohan, and others over the 
years. And now Senator Capito and I are carrying the torch. We 
are proud to be part of the NASA team, and I trust that we can 
work with you and your colleagues to continue to build and 
develop the capability for the benefit of this Nation.

                               EDUCATION

    While I'm disappointed in the administration's decision to 
eliminate NASA Office of Education, sir, I'm puzzled at the 
explanation provided in your testimony that I quote, ``NASA 
will continue to inspire the next generation through its 
mission and in many ways that our work excites and encourages 
discovery by learners of educators.'' They suggest, or this 
suggests, that NASA will move to a spectator sport experience 
versus the actual hands-on experience of developing instruments 
and robotics that the Office of Education currently funds.
    In my State of West Virginia, through the NASA Space Grant, 
the EPSCoR program, thousands of students ranging from K-12 
undergraduate through postgraduate, the students that have 
interned at NASA facilities are now part of your workforce's 
engineers.
    And then if you could describe how you plan to replicate 
the same kind of hands-on development, sir, of activities that 
grow our STEM workforce, with elimination of the NASA Office of 
Education, and provide training to our next generation of 
scientists. I don't know how it can be done without hands-on.
    Mr. Lightfoot. Yes, great question, Senator. For us, the 
way we're looking at this is with the balance of the work we do 
in our Mission Directorates, which is several research grants, 
several challenges and prizes. West Virginia University, for 
instance----
    Senator Manchin. Right.
    Mr. Lightfoot [continuing]. Has won, I think 2 years in a 
row now, the challenge related to robotics. That's funded in 
our Space Technology Mission Directorate and not in Education. 
Our goal is to try to use those kinds of technical challenges 
we have in our Mission Directorates to gather the next teams 
that come in.
    Now, will it replace what we have in Education today? No, I 
would never say that, right?
    Senator Manchin. Yes.
    Mr. Lightfoot. But I do believe it's a way that we can 
inspire--and we've been working on pulling together our 
outreach activities that we do through the Mission Directorates 
to try to compare those with what we're doing in Education to 
maybe bring a more integrated solution to help inspire that 
next generation. I truly believe our missions actually do 
inspire the next generation as much as the hands-on work does, 
and that's what we're trying to do.
    Senator Manchin. Let me ask this question if I may, sir.
    Mr. Lightfoot. Sure.
    Senator Manchin. Because my time here, I don't want to----
    Mr. Lightfoot. Sure.

                               RESTORE-L

    Senator Manchin. I would like to talk to you about NASA's 
Restore-L program, a satellite servicing mission that seeks to 
prove satellites can be robotically refueled and repaired in 
space. It has significant cost savings potential by lengthening 
the lifespan of government and commercial satellites and 
providing new methods for spacecraft management. It's my 
understanding that NASA recently designated the Restore-L 
program as a confirmed mission and is on schedule for a 2020 
launch date to refuel Landsat 7, a U.S. Geological Survey 
satellite.
    In considering these developments, I am perplexed by NASA's 
fiscal year 2018 budget request for the Restore-L program. For 
one, the specific Restore-L funding line has been zeroed out, 
but the budget request indicates that NASA should proceed with 
extensive amount of Restore-L tasks. I don't know how that is 
possible to be done. So how can your request for the Restore-L 
program include conflicting messages, from stay the course to 
outright cancellation?
    Mr. Lightfoot. Yes, in satellite servicing technology, we 
believe NASA should be developing the technologies, and our 
teams at Goddard and West Virginia are part of that team----
    Senator Manchin. Sure.
    Mr. Lightfoot [continuing]. And will be part of what we're 
trying to do. We're still going to develop the technologies 
that allow us to do satellite servicing, whether that's 
rendezvous and proximity operations, which----
    Senator Manchin. But how does that sync with your 2018 
budget?
    Mr. Lightfoot. We've got $45 million in there to do the 
satellite servicing effort. We think this is a great 
opportunity for a public-private partnership to allow 
commercial folks to take our technologies that we develop and 
build the systems that you're talking about. Whether we need to 
demonstrate that in an actual mission, like Restore-L, I think 
we can do these technologies and let the commercial public-
private side decide if they want to be servicing satellites on 
orbit.
    Senator Manchin. Sir, I would respectfully ask you to 
reconsider the Restore-L program for what it's been doing and 
how it continues to be done. I'm not sure the private sector is 
going to step in with so much left undone. I just don't think 
they'll jump in unless it's a win-win for them.
    Mr. Lightfoot. Our goal is to knock those technology items 
down so they will jump in. That's what we're trying to do.
    Senator Manchin. We're going to be monitoring it very 
closely. But thank you, sir, for being here.
    Mr. Lightfoot. Thank you.
    Senator Manchin. Thank you, Mr. Chairman, I appreciate it 
very much.

                              EXPLORATION

    Senator Shelby. Mr. Lightfoot, I have a number of 
questions. I'll start with exploration budgeting. In the year 
2017 appropriations bill, it directed NASA to provide a 
consolidated budget for exploration that properly accounts for 
the launch schedule NASA is actually managing. It's my 
understanding that proposed exploration budget is set to a 
slower timeline and that this disconnect between NASA's 
requested funding and management schedule creates some 
uncertainty and drives inefficient decisionmaking. I believe in 
the aerospace business, uncertainty equals more cost, at least 
we have found this on this subcommittee.
    I have a number of questions here. When will NASA provide 
this subcommittee, the funding subcommittee, with a required 
budget detailing the actual costs necessary for the initial 
launches of SLS rather than what is being proposed?
    Mr. Lightfoot. As you know, we're in the middle of a relook 
at the schedule----
    Senator Shelby. I know.
    Mr. Lightfoot [continuing]. Based on the breach 
notification report we sent up to you.
    Senator Shelby. How long will that relook take?
    Mr. Lightfoot. The relook?
    Senator Shelby. Yes.
    Mr. Lightfoot. Yes. They're getting back with me at the end 
of August with what they think it's going to be. We still have 
a technical challenge with the weld, and we still have a 
technical challenge with the European service module. We're 
trying to get an understanding of where those are before we 
come back with a full-up plan.
    Senator Shelby. What's really causing the delay in 
providing us with the consolidated budget?
    Mr. Lightfoot. The challenge is actually making sure we've 
got these two technical items knocked out before we come up and 
tell you what we need because if I don't have them knocked out 
and I bring you a number and we have more challenges in that 
area, that will make it tough on us.
    The plan, though, is once we launch EM-1 is to launch EM-2 
roughly 30 months after that, and then go on to an annual 
cadence of launches. That won't change. The real challenge is, 
when is that first launch going to be? And that's what we owe 
you.

                          RUSSIAN-MADE ENGINES

    Senator Shelby. Russian engines, you're very familiar with 
these. The Department of Defense is complying with 
congressional direction to transition national security launch 
activity from vehicles that use Russian-made rocket engines to 
those which use a domestically produced engine by the end of 
2022, is my understanding, while maintaining assured access to 
space, which there's a national security factor here.
    Congress, you know, we're grateful to NASA, which has 
provided both its expertise in this area and the experience in 
producing a report that evaluated some of the various options 
currently being pursued by space launch companies.
    A couple of questions. As we continue to debate how best to 
preserve DoD space launch capabilities while transitioning to 
American-made rocket engines, will you work with this 
subcommittee to ensure that NASA's findings inform the policy 
discussion?
    Mr. Lightfoot. The findings you're talking about are the 
independent study we did?
    Senator Shelby. Yes.
    Mr. Lightfoot. Absolutely, yes. I'll be glad to provide 
that report to you, yes.
    Senator Shelby. I understand there is sensitive proprietary 
information----
    Mr. Lightfoot. Yes.
    Senator Shelby [continuing]. In the report that NASA 
produced? Will you provide a copy to this subcommittee under 
the appropriate transmittal parameters?
    Mr. Lightfoot. Yes, sir. Yes, sir, we will.

                                HABITATS

    Senator Shelby. Habitat research, which you know a lot 
about. The 2017 omnibus appropriations bill provided no less 
than $75 million for habitation research activities to support 
human exploration beyond low Earth orbit. I supported this. The 
subcommittee supported this activity. Marshall Space Flight 
Center, that you're very familiar with, has been the center of 
space habitation since the development of the Skylab in the 
late 1960s, and continues today with handling the life support 
systems and science operations of the International Space 
Station.
    The fiscal 2018 budget proposes $120 million for this 
emerging habitat research. I want to know more about NASA's 
long-range plans for managing the program's funding. What my 
question is, what role do you see Marshall Space Flight Center 
having in these new habitat activities beyond the low Earth 
orbit?
    Mr. Lightfoot. Yes. I think when you think about Marshall, 
you merely think environmental control and life support, the 
systems, the advanced systems, we need for the future that are 
probably going to be inside the habitat, the structure of the 
habitat. We already know we're going to pull on those 
capabilities as we move forward. Marshall also has experience 
in building the nodes that we had for the Space Station. So 
there is structure support there as well.
    What I would love to do is get our team up here and share 
what we're doing and where we are in the next step BAA process, 
and I think that will help your team understand the layout of 
where we are and the decisions we need to make, probably more 
in the 2019-2020 timeframe----
    Senator Shelby. Because they do have a lot of experience 
there.
    Mr. Lightfoot. Absolutely.

                            COMMERCIAL CREW

    Senator Shelby. Commercial crew. For the commercial crew 
program, the GAO has identified milestone delays and increased 
program costs of $138 million. The original commercial crew 
program contract stipulated certification for crew launches by 
2017, but the reality is that the anticipated certification 
will now be in 2019, a slip. The fixed nature of the contract 
puts the burden of delays and additional cost on the companies, 
but NASA is also accountable if the scope of the contracts 
change. Further costs are incurred by NASA as the agency 
continues to depend on Russia to fly our astronauts to the 
Space Station.
    A couple of questions. With respect to delays and cost 
increases, did NASA fail to accurately specify the contract 
requirements when it awarded these commercial crew contracts, 
or did the companies themselves fail to fully grasp the scope 
of what they were bidding on?
    Mr. Lightfoot. Well, I think for us, it's the standard 
development activities like you were seeing on SLS and Orion. 
When you start building for the first time, there are some 
challenges that come into play. We have debates with our 
providers often on the requirements, but I think you could 
argue it's a little of both, you know, in terms of their 
understanding our requirements better, but also their going 
through the process of developing hardware for the first time.
    Senator Shelby. What assurance can you give this 
subcommittee that there will be no more cost increases or 
delays? Can you do that?
    Mr. Lightfoot. It's a fixed price contract. I don't expect 
any more cost increase. There may be delays, though, just on 
the sheer nature of what they're trying to do and what we're 
trying to accomplish there.

                              CREW SAFETY

    Senator Shelby. Crew safety. Is NASA experiencing any 
pressure from the commercial crew providers to loosen contract 
requirements to enable flying to the Space Station sooner?
    Mr. Lightfoot. No. What we've done is we've used the loss 
of crew and loss of mission metrics that we have to actually 
drive design changes into their systems. If you look at the 
last Aerospace Safety Advisory Panel meeting, the comment we 
got back from them was that we were using that system 
effectively and we were doing it the right way to increase 
safety of the commercial providers.
    Senator Shelby. Would NASA be open to submitting to an 
independent review of any waivers the agency grants that would 
impact safety requirements for crew vehicles launched from U.S. 
soil?
    Mr. Lightfoot. I believe we already do that with our own 
teams. I'm not sure what independent entity would come in and 
help us, but our teams do that pretty well already. That's part 
of our role, is in terms of certifying whether that vehicle 
flies or not. In my position, not as the Administrator, but in 
my day job as the Associate Administrator, I have to sign off 
on the certification of the designs.
    Senator Shelby. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.

                               EDUCATION

    I want to follow up on Senator Manchin's questions about 
what would replace the elimination of the education programs 
and NASA. You know, I grew up in the post-Sputnik era, and I 
think in response to Sputnik, what Congress and President 
Eisenhower did was to understand that the best way to compete 
was to make sure we had kids who were educated in science and 
math, the STEM subjects, who could then go on to careers at 
places like NASA who could develop the next generation of 
technologies. And we followed those programs with a number of 
very high-profile missions from NASA.
    You know, I remember sitting in my class listening to Alan 
Shepard when he went up in space, to that launch. I remember 
being with the rest of the country enthralled when we landed on 
the Moon. And, you know, those were unifying factors for the 
country, and they were premised on this idea that we need to 
make sure everybody understands what NASA is doing, is excited 
about that, and particularly when it comes to kids, that they 
have the educational opportunities to be able to participate in 
growing the technology of this country and of NASA.
    I know that you've spent 28 years growing 52 Space Grant 
consortium and 850 affiliates nationwide, and that that's been 
critical to continuing to keeping kids engaged in what's 
happening at NASA and in space and STEM. So how are you going 
to keep that network together if you eliminate the education 
programs?
    Mr. Lightfoot. Yes. As I said earlier, one of the things 
that we were working on before this budget came out was a 
better execution arm of our education process. We were already 
looking at that in general, and that's when we saw that we 
could have some connection with our Outreach Program.
    Will I get to that same network? Honestly, I don't think I 
will have that same network, but when we looked at the ability 
to actually still use our missions, just like you described a 
minute ago, those kind of missions that inspire the next 
generation to actually stay in science and math, utilize our 
actual technical challenges needed in our missions to get 
challenges out there for the students, for education 
organizations, to engage in, that's the way we're going to go, 
more in that direction. That was a decision we made when we put 
the budget together.
    Senator Shaheen. And how will you reach out to those 
underserved and underrepresented groups? Because those are the 
ones most important in terms of getting excited about STEM and 
about the scientific foundation that NASA is built on.
    Mr. Lightfoot. Right. Again, we believe we can set up our 
challenges that we have today like CubeSats and things that we 
do in Space Technology, the research grants. We can look to the 
HBCUs as an example of a place we can go for research grants 
for Space Technology and our science STEM activation activity. 
But those are all funded by the Mission Directorate, not by 
Education.
    Senator Shaheen. Well, I certainly disagree with the idea 
that you're going to zero out the education program and EPSCoR, 
and I hope that this subcommittee will be persuaded that that's 
not the right direction to go in.

                                 DSCOVR

    One of the other areas that I'm concerned about is the 
budget proposal that would end NASA's participation in the 
DSCOVR mission. Now, we've spent nearly $120 million on DSCOVR. 
The mission is currently functioning on orbit. In the context 
of the Federal budget, that's not a huge piece of either NASA's 
budget or of the Federal budget. And under your proposal, the 
Earth science instruments would not be turned off, it's just 
that the satellite would continue to generate data, but NASA 
would no longer process, store, and analyze the data. I don't 
understand what the justification is. Why does that make sense?
    Mr. Lightfoot. Well, we believe we have 20 spacecraft 
already on orbit that give us the same data, if not better 
data, based on the sensors that we have, and we would rather 
put our research and analysis efforts around those spacecraft 
instead of DSCOVR in terms of the science level that we're 
getting from the instruments on DSCOVR.
    Senator Shaheen. So is there a list of those other 
instruments? And can you detail exactly how those would provide 
better information?
    Mr. Lightfoot. Absolutely. We can get that to you. I will 
take that one for the record, and we'll be glad to get the 
information, where we think we would replace the DSCOVR 
instruments with instruments we already have on orbit today.

    [The information is in the ``Additional Committee 
Questions'' at the end of the hearing.]

    Senator Shaheen. Well, it seems foolish to me to refuse to 
spend $1.7 million, which is what processing and analyzing that 
data would continue to cost, when we've already made this huge 
investment in it. And to decide that we're not going to use the 
instruments that NASA has already built just seems like the 
kind of thing that people in New Hampshire and across this 
country are frustrated about the way Government works, to make 
a huge expenditure and then to say we're going to collect this 
information, but we're not going to use it because somebody has 
a political issue with that information and what it says.
    So thank you, Mr. Chairman.
    Senator Shelby. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman, Madam Ranking 
Member.
    And, Mr. Administrator, welcome. First of all, I want to 
thank you for the funds put in the budget to help upgrade the 
Wallops Flight Facility, which you would agree, I hope, is an 
important part of the NASA system. Would you agree with that?
    Mr. Lightfoot. Absolutely.
    Senator Van Hollen. All right. And we're grateful to see 
that additional investment.

                               RESTORE-L

    I have a follow-up to a question I understand that Mr. 
Manchin asked, Senator Manchin, regarding Restore-L, and the 
proposal to somehow merge that into a DARPA program. As I'm 
sure you know, the DARPA satellite servicing activity occurs in 
geosynchronous orbit, which, of course, is a very different 
orbit than the operational environment than the low Earth 
orbit, which is currently what Restore-L services.
    So by transitioning this away, by defunding Restore-L, are 
you saying you're going to abandon the low Earth orbit and not 
provide a refueling capability in that orbit?
    Mr. Lightfoot. We think that, just like we've done on the 
International Space Station, where we've demonstrated a lot of 
the techniques that the team at Goddard has developed over time 
in terms of refueling and the activities we're doing on orbit 
today, we can develop the technologies and let the public-
private partnership take our technologies and build a system to 
do the activities in low-Earth orbit, and NASA doesn't need to 
do the mission. We should do the technologies and then transfer 
them to industry. That's what we're saying.
    Senator Van Hollen. If you could please get this 
subcommittee a cost analysis about how that actually will be 
more cost effective given the investment we've already made in 
Restore-L, can you provide that for the subcommittee?
    Mr. Lightfoot. We'll be glad to. Yes.

    [The information is in the ``Additional Committee 
Questions'' at the end of the hearing.]

    Senator Van Hollen. All right. Thank you.

                                  PACE

    Let me ask you about the PACE commission--excuse me, the 
PACE mission, because this is a mission designed to get 
important information about the oceans, especially with respect 
to the health of various fisheries, and important to all the 
coastal areas in the United States. And my question is, given 
that your budget proposes to zero out the PACE mission, how do 
you propose that we get that important information for our 
coastal economies?
    Mr. Lightfoot. Yes, we have a couple other opportunities to 
have that. First of all, can I explain the way we made the 
decisions that we made for PACE? What we did is a programmatic 
assessment. We did a decadal assessment--was it called out in 
the decadals or not? And as you know, PACE was not mentioned in 
the decadals; ACE was, but PACE was not. We think there's a way 
to get that data differently. We also want to see how the new 
decadal for Earth science comes out. In 2018, we're going to 
have a new decadal come out.
    So PACE, because it wasn't in the decadal, a couple others 
because they weren't performing as well, and a couple others 
where we had science that we thought we could get from other 
missions, with the budget box we were in, dropping from the 
$1.9 to $1.7 million roughly that we did in Earth science, that 
was how we made the decisions we made. We're already talking 
with Goddard about, ``How can I go get that data?'' that you 
talked about in a different way than doing the entire PACE 
mission.
    Senator Van Hollen. But just so I understand the answer, 
and I think I do, I mean, you were essentially given a number 
by OMB that you were supposed to hit, is that right?
    Mr. Lightfoot. Yes.
    Senator Van Hollen. Okay. So it was not a decision based on 
the merits of the program in the sense that it started out with 
an instruction to you to find cuts. Is that the case?
    Mr. Lightfoot. Yes. We were given a total number in the 
budget, and we had to manage to that number.
    Senator Van Hollen. I got it. I think all of us would like 
to see the budgets put together by the experts originally, what 
they think the country needs going forward.

                         HUBBLE SPACE TELESCOPE

    And, Mr. Chairman and Madam Ranking Member, I look forward 
to working with you as we consider this budget because in 
addition to those cuts, which I think will have very harmful 
impacts, there is also a cut to the Hubble Space Telescope 
program. There is some language in there saying, ``We're going 
to find efficiencies,'' with no indication of really what that 
is. So it sounds like really another example frankly of you got 
a number, you just said we're going to cut this by $15 million, 
and we're going to find efficiencies. Does that kind of sum it 
up?
    Mr. Lightfoot. I'll have to go back and look about the 
Hubble cut. I may have missed that one in what we've got. So I 
will take that for the record and let you know, but I thought 
we did that for a different reason. Can I take that one for the 
record and get back to you on that one?

    [The information is in the ``Additional Committee 
Questions'' at the end of the hearing.]

    Senator Van Hollen. That would be very helpful. Thank you. 
Thank you very much.
    Senator Shelby. Senator Van Hollen, I'll just make an 
observation. We don't need to cut this budget, we need to 
increase it because so many [off microphone] we can all benefit 
[off microphone].
    Senator Van Hollen. Well, Mr. Chairman, I'm pleased to hear 
you say that. I think that there are lots of areas where 
further investment would help our economy and innovation. Thank 
you.
    Senator Shelby. [Off microphone.]
    Senator Shaheen. I do, Mr. Chairman. Thank you.

                             CYBERSECURITY

    The IG said that NASA has still not implemented an agency-
wide risk management process for information security. And I 
know that in 2018, you have submitted a request for $278 
million for IT services. That's an increase of $18 million 
above the 2017 level. Do you think that will address the IT 
needs of the agency? And will that accomplish the 
recommendations that the Inspector General has for NASA?
    Mr. Lightfoot. Well, we hope so. As you know, the 
cybersecurity challenge that we have is tough for everybody, 
and it's always changing. So we've tried to put in place the 
structure we need to address those issues. We're also trying to 
address the FITARA requirements that we've got as well. With 
the increase, I think it's a total of $32 million, but $18 is 
in the----
    Senator Shaheen. Can you explain what the FITARA 
requirements are?
    Mr. Lightfoot. Yes. The Federal IT Acquisition Reform Act 
(FITARA) requirements are levied on every agency regarding 
management and oversight of IT resources. The Federal 
Information Security Modernization Act (FISMA) pertains to how 
you're doing your cybersecurity, how you're handling your 
networks. So it's a much larger set of requirements that we 
were given about 2 years ago that we've been working on. Part 
of this is to actually implement those requirements to make 
sure your cybersecurity is okay, but also to make sure you're 
doing acquisition in the right way, and protecting what you buy 
in the cybersecurity arena. That's what we're doing with the 
money that we've got that's extra in the 2018 budget.
    Senator Shaheen. And where are you going to get the 
expertise to help you figure out what you need to do?
    Mr. Lightfoot. That's a great question. I think that's one 
of the challenges we have Federal-wide, and from some meetings 
I've been in, getting the cybersecurity professionals has been 
tough. We've had a couple people come in and a couple leave 
pretty quickly because they're pretty marketable in the private 
sector.
    What we're trying to do is utilize our contract workforce 
if we can, bring in people to help us from that perspective, 
but also see if we can hire folks that have the experience and 
actually have a better understanding of our networks and how 
they work. It is a challenge. I've been in several PMCs, even 
from the previous Administration, where the hiring of 
cybersecurity professionals is a challenge for us.
    Senator Shaheen. And are you working with the Department of 
Homeland Security and their Cyber Center as you're looking at 
what----
    Mr. Lightfoot. Absolutely. Yes. They do continuous 
diagnostic monitoring, and we're piggybacking on what they're 
doing, and they're helping us look at our networks as we go 
forward. That's part of that $18 million.

                              HELIOPHYSICS

    Senator Shaheen. Thank you. One of the things that we're 
very proud of in New Hampshire is the University of New 
Hampshire, where our researchers have played a central role in 
expanding knowledge about a number of the phenomena that NASA 
looks at, one of which is heliophysics, and they've been part 
of the heliophysics mission--that's a mouthful--including the 
Magneto-
spheric Multiscale Mission, which was launched in 2015. Can you 
talk about the impact that the MMS mission has had on our 
understanding of heliophysics and why that's been important?
    Mr. Lightfoot. Oh, yes, absolutely. One of the phenomena 
that the MMS is helping us with is the magnetic reconnection in 
the plasma universe that's out there--trying to understand that 
connection. Because what happens with energy? Where does the 
energy go when these reconnections occur? We have actually 
discovered at least 30 of those with MMS.
    What MMS allows us to do, because it's four spacecraft 
flying in formation, is actually get a three-dimensional view 
when we have one of those occur. It's a phenomenon that people 
have been wondering if it happens in the entire universe, and 
it's really advancing our understanding of that particular 
energy and plasma connection as we go forward. It's been a 
fascinating mission for us, no doubt about it.
    Senator Shaheen. And as you point out, it's really critical 
because, as we've seen changing space weather conditions really 
pose risks to our satellite infrastructure, to our power grid, 
and to our other national security assets. This is something 
that we're talking about in the Armed Services Committee. 
According to a 2012 report released by Lloyds of London, a 
severe space weather event could cripple the U.S. economy and 
cost up to $2.6 trillion, with a T, dollars.
    Can you talk a little more about the roles that NASA and 
NOAA play in understanding and predicting space weather?
    Mr. Lightfoot. Yes, ma'am. I break it into the research 
side and the operational side. NASA is responsible for helping 
develop the research models that help us predict these 
activities, and NOAA has the operational aspect of the warnings 
and telling us when we should expect a flare or a storm.
    Senator Shaheen. And are you confident in our space weather 
infrastructure?
    Mr. Lightfoot. Wow. I think we are doing what we can do 
today. We'll see if an event occurs, if we've got the right 
infrastructure. The other thing about space weather is our 
humans on the Space Station.
    Senator Shaheen. Right.
    Mr. Lightfoot. You know, we worry about that from a human 
perspective and we worry as we go deeper into space. I believe 
we're getting the tools that we need from our 18 missions we've 
got studying the Sun, which make our models better. The models 
are just that, though, they're just models, and until we 
actually exercise them with an event, which we hope doesn't 
happen----
    Senator Shaheen. Right.
    Mr. Lightfoot [continuing]. But until we exercise them, we 
will not know. I think we're as good as we can be right now 
with what we know. But we continue to learn. You know, as I 
like to say, every mission we fly answers one question, but 
causes us to ask 10 more, right? And that's the challenge as we 
go forward. But I think the interaction between NASA and NOAA 
and the way it's working, it's working pretty well.
    Senator Shaheen. Good.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.

                               RESTORE-L

    And, thank you, and I apologize for not hearing your 
opening statement, so I think I'm probably going to ask a 
repeating question, but I do want to hear your answer. Most of 
our Nation's civil space assets that support our commercial 
enterprises are housed in the low Earth orbit, LEO, weather in 
particular. The ability to service these assets rather than 
replace them has the potential to save hundreds of millions of 
dollars without the loss of public safety and critical 
scientific data.
    Dan Coats, who is the Director of the National 
Intelligence, recently testified before the Senate Armed 
Services Committee that China and Russia are developing a range 
of weapons to disable our low Earth orbit--our satellites in 
low Earth orbit, yet the President's budget proposes no funding 
for the Restore-L program, which operates in LEO.
    Isn't it more important than ever now, I think, to bolster 
the resilience of our assets in LEO while also enhancing NASA's 
capability at lowering operational costs by demonstrating the 
ability to refuel these satellites?
    Mr. Lightfoot. We think our job is to develop the 
technologies to allow those missions to be built and let the 
commercial folks take the technologies we develop. We've got 
$45 million in the 2018 budget to continue rendezvous and 
proximity ops, the robotics work that we're doing. But we think 
if we can have the industry pick up the technologies and build 
the missions themselves, then we can have a good public-private 
partnership.
    Senator Capito. Is industry doing that now?
    Mr. Lightfoot. Yes. There are several.
    Senator Capito. So percentage-wise in this space would you 
say, how much percent is NASA and how much is private industry?
    Mr. Lightfoot. Oh, wow.
    Senator Capito. I mean, it doesn't have to be 100 percent 
accurate, so----
    Mr. Lightfoot. Can I get you a number?
    Senator Capito. Yes.
    Mr. Lightfoot. Because I know the companies that are 
involved with us, that are working with us today, and I think I 
can probably come back with a much better answer to that. I 
won't ``NASA-size'' it and make it perfect, but I'll get you a 
good answer on that----

    [The information is in the ``Additional Committee 
Questions'' at the end of the hearing.]

    Senator Capito. All right. So you're comfortable with the 
phasing out of this funding that the core missions will be 
picked up by the private sector that then will perform 
government functions as well?
    Mr. Lightfoot. Yes. I actually believe that there is a 
demand, as you said, there's a demand for servicing satellites 
as we go forward. The real question is--and I actually think 
satellite servicing is very important--should NASA be building 
that or should we build the technology and transfer and let 
industry supply that servicing as a commercial buy?
    Senator Capito. Okay. As you see that now, is that a 
different direction from NASA in the past?
    Mr. Lightfoot. I don't think so necessarily. We always 
thought we should do the technologies to enable satellite 
servicing.

                               EDUCATION

    Senator Capito. Okay. Thank you. I'm going to move to the 
NASA's Education Office and the programs within it. West 
Virginia is proud to be home of the next generation of Rocket 
Boys, and we don't want to lose this. We were the first 
generation Rocket Boys, because Homer Hickam is from West 
Virginia. So, but just in this past week, two different teams 
from WVU have won national honors. A team from WVU won the 3-
day Mars Ice Challenge, which challenged teams to extract water 
from a simulated Martian surface. And across the country at the 
Intercollegiate Rocket Engineering Competition, a WVU team won 
first place in the 10,000-foot launch category against 100 
teams, also emboldened on the side, ``Wild and Wonderful,'' 
which is what we call our State.
    These are just recent examples I think of great 
accomplishments, and I think jobs of the future, for our West 
Virginia students. I'm deeply concerned about this elimination 
in funding. We're going to work, I think you've heard from 
others, to restore these cuts because I think it could have a 
chilling effect on the educational programs that NASA is 
offering all across the country where otherwise they might not 
be available.
    What would you say to these programs as to how they're 
important and importance in value to NASA's overall mission?
    Mr. Lightfoot. Yes, I think the programs you talked about 
are critically important. They're also funded by our Space 
Technology Mission Directorate, they're not out of Education. 
Those are challenges that Space Technology does. We'll continue 
those challenges in the Mission Directorates that we have 
today. What we've been trying to do with those challenges, like 
the Mars Ice Challenge, is set those up so folks can--you know, 
it's almost citizen science in some ways--to help us solve our 
problems. But that particular example is funded actually in 
Space Technology, not in Education, and those things will 
continue. We think that's the way to inspire----
    Senator Capito. And the Office of Education, I know that 
NASA travels to elementary schools sometimes, ``Know Your 
Astronaut,'' those kinds of things. Are those the programs that 
are in the Office of Education?
    Mr. Lightfoot. The programs in the Office of Education that 
we're talking about eliminating, EPSCoR, Space Grant, MUREP, 
and SEAP is what are the --
    Senator Capito. That's the elimination?
    Mr. Lightfoot. Yes.
    Senator Capito. EPSCoR is another one that's important in 
our State as well to a lot of our educational institutions. I 
think we need to rethink this strategy, and I'm going to be 
working on that I think across the aisle and with the Chair, 
right? Thank you.
    Thank you.
    Senator Shelby. Thank you.
    Senator Boozman.
    Senator Boozman. Yes. Coming from Arkansas, I also want to 
emphasize the importance of those programs. You know, you're 
nodding that they were important, so how do you--what's going 
to happen once you eliminate the Office of Education? Are those 
going to go away or are you planning on doing it a different 
way or----
    Mr. Lightfoot. Yes, so the 2018 budget proposal is pretty 
clear. We're eliminating EPSCoR, MUREP, SEAP----
    Senator Boozman. And you agree that those are important 
programs.
    Mr. Lightfoot. I think there's value in those programs. So, 
as an agency, what I have to do is figure out a way within my 
other Mission Directorates to not necessarily repeat those 
programs, but actually get the value out that allows me to 
connect with the kids, the students, going forward. I'll still 
have downlinks, I'll still have CubeSat Challenges, I'll still 
have those kind of things that we'll do in our Mission 
Directorate areas. So that's the difference.
    Senator Boozman. Well, again, if you polled the 
subcommittee, there probably is significant concern in that 
area.

                             CYBERSECURITY

    The other thing that was mentioned that I want to follow up 
with, and I think it's also a theme of the subcommittee, is 
cybersecurity. Have you all been successfully hacked?
    Mr. Lightfoot. Successfully hacked? We get attacked, but we 
have a space--we have what's called a Security Operations 
Center that----
    Senator Boozman. Right.
    Mr. Lightfoot [continuing]. I'd have to go look and see if 
we have an actual hack----
    Senator Boozman. I would be surprised if you haven't, 
that----
    Mr. Lightfoot. We have been, but I want to make sure that I 
don't imply that--``hack'' has a lot of different levels, if 
that makes sense.
    Senator Boozman. No, I understand.
    Mr. Lightfoot. And so what I'd rather do is provide you the 
data on how many attacks we've had and how many we've staved 
off, right? And I think I can get you that information pretty 
quickly and so you can kind of see. But we are a target, just 
like most Federal agencies, but because of our data, we pay 
very close attention to that in our Security Operations Center.

    [The information is in the ``Additional Committee 
Questions'' at the end of the hearing.]

    Senator Boozman. No, I understand, but OPM, IRS, they've 
all been hacked very, very successfully, and I would be 
surprised if you haven't also. So the question is, $32 million 
in additional--again, you're talking about the--and I 
understand how difficult it is to compete, at the level that 
you're trying to do, but I think that's something that really 
needs to be looked at or we're going to get ourselves in 
trouble.
    Mr. Lightfoot. Yes, we absolutely agree. And I think if you 
look at what we need to do for FITARA and what we need to do 
for cybersecurity, a lot of the things that are coming down 
from DHS and other agencies, what we really worked on is trying 
to improve our connections with them because they have 
information we need sometimes. We've established something 
called Enterprise Protection Program, that is not just about 
cyber, but all the other vulnerabilities you might have as an 
agency going forward. So we're trying to improve that, and 
that's why we asked for the more money in that area.
    Senator Boozman. So you're working with Homeland Security. 
And I guess--so this is the recommendation from the agency, the 
additional $32 million? Or does this come from OMB? Or what?
    Mr. Lightfoot. This is from us, it's from the agency. It's 
what we think we need.
    Senator Boozman. Very good. How confident are you with the 
NASA budget that you'll be able to reach its goal to return 
crew launch capability to American soil in 2018?
    Mr. Lightfoot. Well, with the budget we have, I think we 
can do it. I think the technical challenges may cause a delay. 
Those are fixed price contracts, and so I don't expect any 
increase in dollars. I think they're all dealing with technical 
challenges going forward, but one of the reasons we did fixed 
price was so we wouldn't have to worry about the additional 
cost.
    Senator Boozman. So the dollars are there, it's more just 
in the technical----
    Mr. Lightfoot. Absolutely.
    Senator Boozman. Okay. Thank you, Mr. Chairman.

                          FINANCIAL STABILITY

    Senator Shelby. Mr. Lightfoot, you've been associated with 
NASA a long time. What today in your judgment is the biggest 
challenge NASA has? I know you have many challenges. You're out 
there challenging everything.
    Mr. Lightfoot. I have to pick one? I think that the biggest 
challenge for us is stability, constancy of purpose, and that's 
why I said what I said at the start of my remarks, that we've 
been pretty fortunate to have good bipartisan support on the 
Hill, so that we can keep that constancy going. The ups and 
downs that you can get if you don't have that are really 
difficult on the teams, and they----
    Senator Shelby. I think we're going to keep bipartisan 
support. I'm going to give all I can, I believe the Senator 
from New Hampshire will, too, just like Senator Mikulski and I 
did work together.
    Mr. Lightfoot. But I think the biggest threat to me is 
uncertainty. The technical stuff is hard, and that's what we 
love to do, though.
    Senator Shelby. Certainty is important.
    Mr. Lightfoot. Yes.
    Senator Shelby. Certainty of funding is important.
    Mr. Lightfoot. You got it.
    Senator Shelby. How important is certainty of funding, as 
much certainty as you can bring through the appropriation----
    Mr. Lightfoot. Yes, I think it's critically important for 
us to do the long-term planning. We're not working on 1-year 
programs here.
    Senator Shelby. Yes.
    Mr. Lightfoot. And if you look at things like flat-out 
years, for the next 5 years, that's $4.5 billion in lost or 
potential lost buying power. How do I plan for that, right? 
When you look at fiscal year 2018, and all the outyears are 
notional, it's really hard sometimes for us to do the right 
kind of planning that we need to do. That's the biggest 
challenge for me.
    Senator Shelby. But NASA for years has been on the cutting 
edge and has to maintain a cutting edge of science, and we all 
benefit from that. It's not just what we put up in space, but 
all the ancillary benefits that come to our economy and to our 
scientists and engineers----
    Mr. Lightfoot. And Aeronautics is in it as well. What we do 
in Aeronautics is critically important.
    Senator Shelby. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. I have one final 
question.

                           GAO HIGH RISK LIST

    Mr. Lightfoot, in my opening statement I talked about 
NASA's challenges with the GAO's High Risk List. And I know 
that this is something that you've been working on. But does 
NASA have the budgetary and human resources to address the 
concerns that NASA has raised? And what's it going to take to 
get off that High Risk List?
    Mr. Lightfoot. I am trying. That has been an interesting--
I've been up here 5 years now as the Associate Administrator, 
and I think we've been on the High Risk List since it started, 
since GAO first did the High Risk List.
    Senator Shaheen. I think that's correct.
    Mr. Lightfoot. And there are five categories that they ask 
you to get graded on. In three of those, we're fully compliant, 
and we weren't, you know, 5 years ago, but we're fully 
compliant in three of them. In two of them, we're not yet. And 
the two that we haven't fully complied with involve what they 
call ``proving it over time'', right? Proving that we're doing 
better over time. If you look at the GAO High Risk Report, 
while we're still on it, they give us a lot of credit for 
improvement over the last 5 years.
    Senator Shaheen. Right.
    Mr. Lightfoot. And the teams have put a lot of things in 
place, whether it's earned value management, whether it's joint 
confidence levels that we use. The challenge we have is we have 
some big programs coming up. We've got James Webb. We've got 
the Space Launch System and Orion. Those are big multibillion 
dollar programs that we've got to prove that we can manage 
appropriately.
    I understand that piece of it. I think the challenge is 
going to be when--I've talked to the GAO about this, and they 
said, ``You've got to prove us that you're going to do those, 
and maybe we'll get you off the list.'' My worry is that I'm 
going to have another set of programs right behind that that 
are going to be just as complex and just as complicated.
    I understand the point, the GAO High Risk is how you're 
managing your programs, make sure you're being good stewards of 
the taxpayer dollar, but in some respects, I kind of hope NASA 
is on the High Risk List because that means we're trying to do 
some hard stuff. And if we get it wrong from a programmatic 
perspective, we need to learn from it and do better, but if I 
get so risk averse, I don't really push the envelope, and to 
me, that's where I get a little--you've got to balance that. 
You've got to balance pushing versus being too vanilla just to 
get off that list. But that's my personal opinion, having gone 
through it.
    I will tell you this, though--GAO has been outstanding in 
helping us with our practices. I give them a lot of credit for 
helping us be better in the program project management arena 
going forward. It's been a good partnership. We're probably not 
there as well as they want us to be yet, but I think we're 
improving.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Shelby. [Off microphone.]

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions, other Senators may 
submit additional questions to you, Mr. Lightfoot, for the 
record, and we would request NASA's response within 30 days.
    Mr. Lightfoot. Okay.
    [The following questions were not asked at the hearing, but 
were submitted to the agency for response subsequent to the 
hearing:]
            Questions Submitted to Robert M. Lightfoot, Jr.
              Questions Submitted by Senator Thad Cochran
    Question 1. NASA has shown significant savings by implementing the 
NASA Shared Services Center in Mississippi. Does NASA plan to continue 
to consolidate back-office services at the NSSC to further save 
taxpayer dollars and invest in core NASA Missions?
    Answer. NASA will continue to consolidate services at the NASA 
Shared Services Center (NSSC) where beneficial. Currently NASA is 
transitioning purchase card transactions to the NSSC and is considering 
consolidation of other services to include extended travel processing 
and job classification duties.
    Question 2. NASA's Integrated Shared Services operating model is 
leading the Federal Government in implementing shared services, which 
the President's recent cybersecurity executive order has called for. 
And I'm proud that we are doing it at Stennis Space Center in 
Mississippi. Does NASA have plans to offer its integrated services to 
other Federal agencies to further save taxpayer dollars and make the 
Federal Government more efficient and effective?
    Answer. NASA continues to explore ways to make the NASA Shared 
Services Center (NSSC) more efficient and effective, including working 
with the President's Management Council (PMC) on strategies for 
providing shared services across the Federal Government. Consistent 
with recent decisions by the PMC, NASA is evaluating its long-term 
shared services strategy. As the evaluation from the PMC is ongoing, 
NASA does not plan to offer integrated services to other agencies in 
fiscal year 2018, other than data center services that are currently 
offered through the National Center for Critical Information Processing 
and Storage (NCCIPS) center.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
 spacecraft already in orbit--replacing dscovr instrument measurements
    Question. So is there a list of those other instruments? And can 
you detail exactly how those would provide better information?
    Mr. Lightfoot. Absolutely. We can get that to you. I will take that 
one for the record, and we'll be glad to get the information where we 
think we would replace the DSCOVR Instruments with instruments we 
already have in orbit today.
    Answer. The two Earth science instruments proposed for termination 
on NOAA's Deep Space Climate Observatory (DSCOVR) spacecraft are the 
Earth Polychromatic Imaging Camera (EPIC) and the National Institute of 
Standards and Technology (NIST) Advanced Radiometer (NISTAR), neither 
of which was a recommendation in the last Earth Science Decadal Survey. 
A description of each, and details about how measurements from other 
missions are covering the same areas, is described below.
    EPIC, a 10-channel spectroradiometer (317-780 nm), provides 10 
narrow band spectral images of the entire sunlit face of Earth and 
measurements of the Earth's atmosphere and surface (ozone, aerosols, 
cloud cover, cloud height, vegetation index, and leaf area index). The 
downloaded images from EPIC have an estimated optical resolution of 
approximately 24x24 km squared. The EPIC instrument, because it has a 
field of view (FOV) of 0.62 degrees, is the only instrument to image 
the entire sunlit side of the Earth instantaneously.
    The following instruments are currently making measurements that 
are similar to EPIC in other selected science areas:
    Stratospheric Aerosol and Gas Experiment III (SAGE-III) 
spectrometer monitors the vertical distribution of aerosols, ozone and 
other trace gases in Earth's stratosphere and troposphere.
Suomi National Polar-orbiting Partnership (Suomi-NPP)
  --The Visible Infrared Imaging Radiometer Suite (VIIRS) provides 
        information about clouds, aerosol, and surface properties at a 
        spatial resolution of about 750 m for most spectral 
        measurements. VIIRS records data at a set of discrete 
        wavelengths from the ultraviolet (0.45 _m) to the infrared (12 
        _m).
  --The Cross-track Infrared Sounder (CrIS) is a hyperspectral (>1000 
        spectral wavelengths) sensor that will provide complementary 
        information about clouds, especially in complex regions such as 
        the poles, over bright surfaces such as snow/ice, and in areas 
        that have strong temperature inversions.
  --The Ozone Mapping Profiler Suite (OMPS) measures the global 
        distribution of the total atmospheric ozone column on a daily 
        basis. It also measures the vertical distribution of ozone from 
        about 15 km to 60 km, though somewhat less frequently.
Aqua spacecraft
  --The Atmospheric Infrared Sounder (AIRS) observes and characterizes 
        the entire atmospheric column from the surface to the top of 
        the atmosphere in terms of surface emissivity and temperature, 
        atmospheric temperature and humidity profiles, cloud amount and 
        height, and the spectral outgoing infrared radiation.
  --The Moderate Resolution Imaging Spectroradiometer (MODIS) provides 
        measurements in large-scale global dynamics including changes 
        in Earth's cloud cover, radiation budget and processes 
        occurring in the oceans, on land, and in the lower atmosphere.
Terra spacecraft
  --MODIS provides measurements in large-scale global dynamics 
        including changes in Earth's cloud cover, radiation budget and 
        processes occurring in the oceans, on land, and in the lower 
        atmosphere.
  --The Multi-angle Imaging SpectroRadiometer (MISR) measures the 
        intensity of solar radiation reflected by the Earth system 
        (planetary surface and atmosphere) in various directions and 
        spectral bands. MISR is specifically designed to monitor the 
        monthly, seasonal, and long-term trends of atmospheric aerosol 
        particle concentrations including those formed by natural 
        sources and by human activities, upper air winds and cloud 
        cover, type, height, as well as the characterization of land 
        surface properties, including the structure of vegetation 
        canopies, the distribution of land cover types, or the 
        properties of snow and ice fields, amongst many other 
        biogeophysical variables.
CloudSat and the Cloud-Aerosol Lidar and Infrared Pathfinder Satellite 
        Observation (CALIPSO)
  --The Cloud Aerosol Lidar with Orthogonal Polarization (CALIOP) is a 
        two-wavelength polarization-sensitive lidar that provides high-
        resolution vertical profiles of aerosols and clouds.
  --The Imaging Infrared Radiometer (IIR) is a nadir-viewing, non-
        scanning imager having a 64 km by 64 km swath with a pixel size 
        of 1 km. The CALIOP beam is nominally aligned with the center 
        of the IIR image. The IIR wavelengths are optimized to provide 
        joint CALIOP/IIR retrievals of cirrus cloud emissivity and 
        particle size.
    CloudSat provides observations to advance the understanding of 
cloud abundance, distribution, structure, and radiative properties. 
Unlike ground-based weather radars that use centimeter wavelengths to 
detect raindrop-sized particles, CloudSat's radar allows us to detect 
the much smaller particles of liquid water and ice that constitute the 
large cloud masses that make our weather.
    NISTAR was designed to measure the Earth's energy balance (solar 
input and Earth reflection and radiation to space), integrated over the 
entire sunlit face of the Earth in 4 broadband channels minute-by-
minute, with sufficient accuracy (0.1 percent) to improve our 
understanding of the effects of changes caused by human activities and 
natural phenomena. The instrument utilizes three active cavity 
radiometers and a photodiode, plus several band-defining optical 
filters that can be used with any of the detectors.
    While the following instruments are currently making measurements 
in selected similar science areas the NISTAR instrument is the only one 
to measure the radiance output from the sunlit Earth over a broad 
portion of the spectrum:
Aqua spacecraft
  --AIRS observes and characterizes the entire atmospheric column from 
        the surface to the top of the atmosphere in terms of surface 
        emissivity and temperature, atmospheric temperature and 
        humidity profiles, cloud amount and height, and the spectral 
        outgoing infrared radiation.
  --MODIS provides measurements in large-scale global dynamics 
        including changes in Earth's cloud cover, radiation budget and 
        processes occurring in the oceans, on land, and in the lower 
        atmosphere.
  --The Cloud's and the Earth's Radiant Energy System (CERES) provides 
        data on the Earth's radiation budget with data products on both 
        solar-reflected and Earth-emitted radiation from the top of the 
        atmosphere to the Earth's surface.
Terra spacecraft
  --MODIS provides measurements in large-scale global dynamics 
        including changes in Earth's cloud cover, radiation budget and 
        processes occurring in the oceans, on land, and in the lower 
        atmosphere.
  --MISR measures the intensity of solar radiation reflected by the 
        Earth system (planetary surface and atmosphere) in various 
        directions and spectral bands. MISR is specifically designed to 
        monitor the monthly, seasonal, and long-term trends of 
        atmospheric aerosol particle concentrations including those 
        formed by natural sources and by human activities, upper air 
        winds and cloud cover, type, height, as well as the 
        characterization of land surface properties, including the 
        structure of vegetation canopies, the distribution of land 
        cover types, or the properties of snow and ice fields, amongst 
        many other biogeophysical variables.
    Suomi-NPP's CERES instrument provides data on the Earth's radiation 
budget with data products on both solar-reflected and Earth-emitted 
radiation from the top of the atmosphere to the Earth's surface.
    Solar Radiation and Climate Experiment (SORCE) provides 
measurements of incoming x-ray, ultraviolet, visible, near-infrared, 
and total solar radiation. The measurements provided by SORCE 
specifically address long-term climate change, natural variability and 
enhanced climate prediction, and atmospheric ozone and UV-B radiation.
                                 ______
                                 
               Question Submitted by Senator John Boozman
               cybersecurity-hacking successful attempts
    Question. The other thing that was mentioned that I want to follow 
up with, and I think it's also a theme of the subcommittee, is the 
cybersecurity. Have you all been successfully hacked?
    Mr. Lightfoot. Successfully hacked? We get attacked, be we have a 
space--we have what's called a Security Operations Center that----
    Senator Boozman. Right.
    Mr. Lightfoot. I'm trying to think if we've got--I'd have to--I'd 
have to go look and see if we have an actual hack----
    Senator Boozman. I would be surprised if you haven't that----
    Mr. Lightfoot. We have been, but I want to make sure that I don't 
imply that--``hack'' has a lot of different levels, if that makes sense 
. . . And so what I'd rather do is provide you the data on how many 
attacks we've had and how many we've staved off right? And I think I 
can get you that information pretty quickly.
    Answer. Attached, for the information of the subcommittee, are 
copies of NASA's fiscal year 2015 Annual Cybersecurity Report and 
NASA's fiscal year 2016 FISMA Executive Summary letter. These reports 
provide information on NASA cybersecurity issues.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
           Question Submitted by Senator Shelley Moore Capito
                 satellite servicing--industry interest
    Question. So percentage-wise in this space would you say, how much 
percent is NASA and how much is private industry? I mean, it doesn't 
have to be 100 percent accurate, so----
    Mr. Lightfoot. Can I get you a number?
    Senator Capito. Yes.
    Answer. The actual value of industry investment in satellite 
servicing technology is not publicly available at this time. As such, 
NASA is unable to provide a comprehensive comparison of the value of 
industry investment vs. NASA investment in satellite servicing. 
However, we are aware of at least two large aerospace companies that 
are investing in satellite servicing with their own capital. In 
addition, Space Technology received 3 responses to its recently issued 
In-Space Satellite Servicing Capability Request for Information (RFI).
                                 ______
                                 
              Questions Submitted by Senator John Kennedy
    Question 1(a). NASA plays a crucial role in my home State as an 
economic engine. Louisiana has a great partnership between our facility 
in New Orleans and the facilities in Alabama and Mississippi. About 30 
percent of the workforce at Stennis commutes from Louisiana. As you 
mentioned in your written testimony, the Core Stage of the rocket is 
being built at the Michoud Assembly Facility in New Orleans. Since 
NASA's early days, New Orleans has played and is playing a major role 
in the space program. I could I cannot stress the importance of the 
space exploration program enough. I have two questions:
    You mentioned work is continuing at Michoud Assembly Facility 
despite tornado recovery. Can you tell me if this fiscal year 2018 
budget requests additional funds for recovery at Michoud?
    Answer. No, the fiscal year 2018 budget request does not include 
additional funds for recovery at Michoud. The emergency supplemental of 
$109.2 million included in the fiscal year 2017 omnibus appropriation 
fully funded NASA direct needs relating to tornado recovery at Michoud 
Assembly Facility (MAF).
    Question 1(b). The administration's NASA request included a 10 
percent cut to the SLS and 12 percent cut to the Orion program. Can you 
justify the need for cutting $213 million from SLS and $163 million 
from Orion? Do you project this cut will delay the overall timeline for 
our space exploration program?
    Answer. NASA's exploration program is working to extend human 
presence into the solar system and opening the space frontier. Orion, 
the Space Launch System (SLS) and Exploration Ground Systems (EGS) are 
important components of this plan and will enable human exploration 
beyond low Earth orbit. The President's fiscal year 2018 Budget Request 
fully supports their ongoing development, while also balancing 
priorities across NASA's portfolio, including by investing in other 
capabilities that are critical to a successful human exploration 
program. The combined request for SLS and Orion is over $500 million 
higher than the previous administration's requests.
    At the fiscal year 2018 President's budget level, the Orion program 
will continue final assembly and testing of the crew vehicle at Kennedy 
Space Center (KSC). The SLS rocket's production and certification for 
flight will continue at MAF and Marshall Space Flight Center, and 
engine testing will continue at Stennis Space Center. Key rocket 
components will be delivered to KSC for integration into the final 
flight launch vehicle with the Orion crew vehicle. EGS will continue to 
prepare launch infrastructure and operations requirements in support of 
the SLS and Orion programs. Modifications to existing facility and 
command and control systems will be ongoing. All of these efforts will 
allow continued progress in our program of human deep space 
exploration.
    NASA announced earlier this year that the Exploration Mission-1 
(EM-1) will occur no earlier than October 2019 due to technical, not 
funding challenges. The proposed funding level in the fiscal year 2018 
budget will not delay the overall timeline, and increases above this 
level will not enable an earlier EM-1 launch date.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
    Question 1(a). I share the concern of many about the impact of 
closing the Office of Education. During your testimony, you discussed 
university-level design competitions at the directorates as activities 
that could be expanded to replace the Office of Education. However, 
neither your budget, nor your testimony, presents a plan for expanding 
these programs to address the K-12 pipeline.
    What are your plans for engaging NASA directorates in K-12 
education without the expertise of the Office of Education?
    Answer. K-12 education activities constitute only a small part of 
the Office of Education's work. The majority of the Office of 
Education's funding supports educational institutions such as 
universities. The fiscal year 2018 President's budget request proposed 
eliminating the Office of Education and maintained the education and 
outreach efforts of the NASA mission directorates. NASA mission 
directorates already support a variety of activities that engage 
students.
    The Science Mission Directorate (SMD) supports a diverse portfolio 
of STEM engagement activities, funded through its cooperative agreement 
awards. SMD selected 27 organizations from across the United States to 
implement a new strategic approach to more effectively engage learners 
of all ages on NASA science education programs and activities.
    The Aeronautics Mission Directorate also provides K-12 educational 
content through its website: https://www.nasa.gov/aeroresearch/
resources/k-12. Both the Human Exploration and Operations Mission 
Directorate and the Space Technology Mission Directorate provide 
important mission-specific outreach that inspires students of all ages.
    Question 1(b). Please describe any consultation with stakeholders 
in the education and scientific communities that you have undertaken in 
developing such plans.
    Answer. In the spring of 2016, NASA initiated an internal Business 
Services Assessment for Education & Outreach at NASA. This assessment 
included, amongst other topics, an in-depth review of how mission 
directorates engage with the Office of Education. NASA conducted 
benchmarking interviews with external organizations and government 
agencies as part of this assessment. The results of those interviews 
contributed to the overall findings and recommendations, which 
identified challenges in areas such as agency oversight and 
integration, governance structure, and budgetary processes. An internal 
implementation plan incorporating these recommendations will be 
approved by the Agency this fall.
    Additional input is provided by the NASA Advisory Council Ad Hoc 
Task Force on STEM Education. This external group of top-level advisors 
provides findings and recommendations to NASA regarding the development 
of an integrated education strategy to increase internal coordination 
and collaboration amongst the Mission Directorates, the NASA Centers, 
and the Office of Education.
    Question 2(a). The 2013 National Academy of Sciences (NAS) review 
of EPSCoR programs across the Federal Government concluded that EPSCoR 
programs were a valuable part of a national strategy to maintain global 
scientific leadership. The report emphasized the importance of engaging 
all 50 States in technology research and that successfully doing so 
requires the involvement in EPSCoR of technology-driven agencies, 
including NASA.
    Does NASA continue to support the NAS recommendation of engaging 
all 50 States in technology research?
    Answer. NASA is one of five Federal agencies that conduct EPSCoR 
programs. EPSCoR establishes partnerships with government, higher 
education and industry that are designed to effect lasting improvements 
in a State's or region's research infrastructure, R&D capacity and 
hence, its national R&D competitiveness.
    The EPSCoR program is directed at those jurisdictions that have not 
in the past participated equably in competitive aerospace and 
aerospace-related research activities. Twenty-four States, the 
Commonwealth of Puerto Rico, the U.S. Virgin Islands, and Guam are 
currently eligible to participate.
    While the NASA EPSCoR program has been funded since 1993, no long-
term data exists to demonstrate the effectiveness of the program toward 
enhancing the R&D competitiveness of participating states. In fact, the 
National Academy of Sciences (NAS) review stated that EPSCoR's 
reputation ``has been largely based on anecdotal and institutional 
evidence rather than on detailed analyses of statewide or national 
results.''
    The NAS review also pointed out that some agencies such as DoD and 
EPA have terminated their EPSCoR programs and have continued to support 
R&D competitiveness through other ways. NASA has a robust portfolio of 
technology development managed by the Space Technology Mission 
Directorate (STMD). STMD rapidly develops, demonstrates, and infuses 
revolutionary, high-payoff technologies through transparent, 
collaborative partnerships, expanding the boundaries of the aerospace 
enterprise. Research and technology development take place within NASA 
Centers, in academia and industry, and leverage partnerships with other 
government agencies and international partners. STMD engages and 
inspires thousands of technologists and innovators creating a community 
of our best and brightest working on the nation's toughest challenges.
    Question 2(b). How will NASA accomplish this engagement without 
EPSCoR and Space Grant?
    Answer. See the answer to 2a.
    Question 3. The proposed fiscal year 2018 budget calls for a 
drastic reduction in NASA's Earth observation capabilities, including 
the cancellation of four Earth-observing missions. However, the 
scientific consensus is that more data is necessary to prepare for the 
economic, national security, and humanitarian impacts of climate 
change. For all proposed cancellations, I request that you detail the 
capabilities of all Earth-observing instruments that will be cancelled, 
the nearest equivalent instrument that will be generating data during 
the time period specified for such missions, and the impact on human 
understanding of climate change that will result from cancellation of 
the mission.
    Answer. Given funding constraints facing our nation, the fiscal 
year 2018 President's budget request for NASA proposes termination of 
four Earth science missions in development. It also calls for 
terminating NASA activities related to analysis of Earth science 
measurements from one on-orbit mission. In each case, other existing 
and planned missions from NASA, NOAA, and international partners are 
providing or will provide similar--though not overlapping--measurements 
that will enable continued research and applications development. 
Details are as follows:
  --Orbiting Carbon Observatory-3 (OCO-3).--OCO-3, which was not 
        specifically identified in the previous decadal survey, is an 
        instrument designed to make frequent, accurate, and moderate-
        resolution measurements of atmospheric carbon dioxide levels 
        from the International Space Station (ISS). Once on-orbit, OCO-
        3 was designed to operate through at least 2022, with 
        measurements used to improve understanding of natural processes 
        that exchange carbon dioxide between the surface (land and 
        ocean) and atmosphere. In the ISS inclined orbit, OCO-3 would 
        have mapped as many as 100 different areas each day, collecting 
        data at different local time-of-day, thus providing diurnal 
        cycle information not available from the sun-synchronous OCO-2 
        orbit. OCO-3 also would have provided new measurements of 
        regional-scale patterns of sources of CO<INF>2</INF> from human 
        activity in the Middle East, India and China.
        With respect to alternatives to OCO-3 data, the existing NASA 
OCO-2 mission will continue to monitor carbon dioxide concentrations 
and distributions in the atmosphere. In addition, the new NASA GeoCARB 
satellite mission that is funded in the President's fiscal year 2018 
budget proposal, to be launched in 2022 as a hosted payload on a 
commercial communications satellite in geostationary orbit, will 
monitor plant health and vegetation stress throughout the Americas, and 
will probe, in unprecedented detail, the natural sources, sinks and 
exchange processes that control carbon dioxide, carbon monoxide and 
methane in the atmosphere. Our international space agency partners from 
Japan (GOSAT and GOSAT-2) and Europe (MERLIN, likely Sentinel-7) have 
carbon monitoring missions on-orbit and in development. Japan launched 
GOSAT/Ibuki in early 2009 and a follow-on GOSAT-2 mission is under 
development for launch in 2018. GOSAT makes measurements similar to 
those of OCO-2, although with less coverage and lower accuracy. NASA 
and JAXA conduct collaborative validation field campaigns and algorithm 
refinement activities involving both OCO-2 and GOSAT. In December 2016, 
China launched the TanSat mission to make global measurements of 
atmospheric CO<INF>2</INF> concentrations from an orbit similar to that 
of OCO-2, however, these data sets are not available for use by the 
broad international research community. France is developing the 
MicroCarb mission to measure both carbon dioxide and methane with an 
emphasis on determining human-caused emission sources, using a small-
satellite and miniaturized instruments. The French/German MERLIN 
mission is under development for launch in 2019 to measure the 
greenhouse gas methane using an active lidar instrument. With the 
exception of the Chinese TanSat, NASA scientists will have access to 
the measurements from the other international missions.
  --Plankton, Aerosol, Cloud, ocean Ecosystem (PACE).--PACE is in Phase 
        B and was targeted to launch NET 2022. PACE is designed to be 
        the first satellite mission to collect global, hyperspectral 
        measurements of the Earth's integrated ocean and atmosphere 
        system. PACE's ocean, Great Lakes, and inland water 
        observations would have provided high spectral resolution 
        water-leaving reflectances (``ocean color'') across the 
        ultraviolet-visible-near infrared spectral region. These 
        measurements were Tier-2 recommendations of the 2007 National 
        Academies of Science Decadal Survey (DS). PACE would have been 
        able to monitor both the initiation and the development of a 
        harmful algal bloom (HAB) to support early alerts, whereas in-
        situ and aircraft measurements generally occur after the HAB 
        already has developed.
        Global spaceborne ocean color measurements utilizing multi-
spectral instruments will continue to be acquired by NASA and NOAA; 
however, without PACE, the opportunity for the implementation of a 
hyperspectral instrument technology will be postponed (hyperspectral 
imagers make measurements in hundreds or thousands of bands, while 
multi-spectral imagers only acquire data in a few (generally less than 
12) bands). Existing multi-spectral, long-term, on-orbit U.S. 
instruments include MODIS on Aqua and VIIRS on Suomi-NPP; the OLCI on 
the European Sentinel-3A launched in February 2017, with a similar 
instrument on Sentinel-3B scheduled for launch in 2018, are currently 
providing ocean color measurements with accuracy, stability, and 
coverage sufficient to enable some NASA research and applications 
development. The MODIS (on Aqua) and VIIRS (on Suomi-NPP) instruments 
are not optimized for specialized observations of fisheries or ocean-
atmosphere exchange of CO<INF>2</INF>. The Landsat 8 OLI instrument 
used primarily to monitor land is being explored as a tool to examine 
U.S. coastal zones, but its 16-day repeat cycle offers limited value 
for this purpose.
  --Radiation Budget Instrument (RBI).--RBI is in Phase C and was 
        targeted to launch on the Joint Polar Satellite System (JPSS)-2 
        in November 2021. RBI is a data continuity instrument designed 
        to seamlessly extend the nearly 30-year long time series of 
        precision Earth Radiation Budget (ERB) measurements obtained by 
        NASA and NOAA. RBI is designed for a 7-year on-orbit lifetime, 
        commensurate with that of the NOAA JPSS-2 satellite on which it 
        was to be hosted. RBI was being designed to measure Earth's 
        reflected sunlight and emitted thermal radiation, to aid 
        calculations and monitoring of the planet's energy balance. 
        Technological innovations and advances for RBI have proven 
        difficult, and costs have increased greatly. NASA is presently 
        reviewing the schedule, cost, and technical status of RBI to 
        determine the project's programmatic viability. NASA and NOAA 
        instruments making similar measurements are flying now (CERES 
        on Terra and Aqua) and are planned for near-term launch (CERES 
        on NOAA's JPSS-1, to launch in November 2017). The upcoming 
        launch of the CERES instrument on JPSS-1 may provide time to 
        redesign the next ``RBI-like'' instrument series to benefit 
        from advances in technology from the private sector, without 
        causing a gap in the multi-decadal radiation budget time 
        series.
  --Climate Absolute Radiance and Refractivity Observatory--Pathfinder 
        (CLARREO PF).--CLARREO-PF is in Phase A, targeted to launch in 
        2021 and be hosted on the ISS. It is a precursor to CLARREO, a 
        2007 DS Tier 1 mission that would produce highly accurate 
        climate records in order to improve models. In 2016, the 
        CLARREO project received funding for a Pathfinder (PF) mission 
        to demonstrate essential measurement technologies, such as the 
        Reflected Solar (RS) spectrometer. CLARREO-PF would have 
        provided much higher accuracy observations across the full 
        reflected solar and infrared spectra than existing instruments 
        including CERES (on Terra, Aqua, Suomi-NPP, and upcoming JPSS-
        1) and TSIS, which provide basic measurements indicating 
        radiation balance trends. In addition, CLARREO-PF would have 
        performed inter-calibration on orbit in the reflected solar 
        wavelength domain, providing highly accurate spectral 
        reflectance and reflected radiance measurements to establish an 
        on-orbit reference for existing sensors, including CERES and 
        VIIRS on JPSS satellites, Advanced Very High-Resolution 
        Radiometer and follow-on imagers on MetOp, Landsat imagers, and 
        imagers on geostationary platforms.
  --Deep Space Climate Observatory (DSCOVR) research analysis.--Two 
        NASA-supplied Earth observing instruments, the Earth 
        Polychromatic Imaging Camera (EPIC) and NIST Advanced 
        Radiometer (NISTAR), on the orbiting DSCOVR mission provide 
        data on cloudiness and cloud evolution, albedo, ozone and other 
        parameters. The EPIC and NISTAR instruments are operating now 
        and are planned for continued operations with no current end 
        date. DSCOVR's location 1.5 million km from Earth provides a 
        unique vantage point and frequent sampling of the sunlit 
        hemisphere of the Earth. Terminated NASA funding would impact 
        NASA research activities related to the scientific analysis of 
        data from the instruments, which were not mentioned in the 
        previous Earth science decadal survey. DSCOVR is operated by 
        NOAA and data could continue to be acquired by both instruments 
        and telemetered back to the ground at NOAA's discretion. EPIC 
        complements (at lower spatial resolution) the measurements of 
        MODIS and VIIRS; and NISTAR complements CERES for albedo and 
        radiation balance. Potential new exploitations of the EPIC and 
        NISTAR data would not be uncovered by research and applications 
        activities if funding for operations is eliminated.
    Question 4. Reductions to NASA's aeronautics budget are likely to 
adversely affect the Nation's ability to develop, test, and deploy 
hypersonic systems: a technology area where NASA and the Department of 
Defense have complementary needs. Both agencies will rely on hypersonic 
technologies for access to space, while the DoD will also use these 
capabilities for new weapons and advanced intelligence and surveillance 
platforms. What will the impact of your budget request be on NASA's 
workforce and test facilities capabilities to support the needs of 
hypersonics research, development and testing of the Department of 
Defense?
    Answer. In 2017, NASA Aeronautics created the Hypersonic Technology 
Project (HTP) and requested $25 million to support its activities, 
which are focused on conducting foundational hypersonic research that 
directly benefits both future civil and defense hypersonics 
applications. In addition, the Agency has implemented a funding model 
for key aeroscience facilities that has improved our ability to sustain 
and utilize these key capabilities and have contributed to hypersonic 
research. One example of fiscal year 2017 investments in hypersonic 
test capabilities was the procurement of a new nozzle for the 8-ft High 
Temperature Tunnel at LaRC that will improve both reliability and 
facility performance. Funding for HTP in the fiscal year 2018 budget 
request is equal to its fiscal year 2017 level, and NASA continues to 
collaborate effectively with our partners in the Department of Defense 
(DoD). The fiscal year 2018 HTP request will continue to support this 
workforce at its fiscal year 2017 level, and will also continue to 
strengthen NASA's testing capabilities. NASA is leveraging results from 
DoD tests to validate computational tools and support research. NASA's 
role in the national hypersonics enterprise is to provide subject 
matter expertise and key testing capabilities that support national 
security requirements.
                                 ______
                                 
            Questions Submitted by Senator Joe Manchin, III
    Question 1(a). The NASA IV&V facility provides an invaluable 
service to the nation to ensure that software safety, reliability, and 
quality for NASA and NASA-led missions meet the highest standards to 
ensure mission success of multi-billion programs. To name a few: 
Europa, James Webb Telescope, and Space Launch System (SLS). The IV&V 
facility was established as one of the recommendations of the 1986 
Challenger accident. NASA missions are benefitting as a result of the 
excellent work being conducted there. I am concerned about the level of 
support for IV&V work relative to the multi-billion dollar missions 
that IV&V is working on.
    Given the importance of the missions that IV&V supports, why isn't 
it receiving the $45 million required to meet its basic mission 
requirements?
    Answer. The requested amount for IV&V funds the Agency's 
anticipated work in fiscal year 2018.
    Question 1(b). What is NASA's cost-benefit or risk analysis for 
allowing these multi-billion dollar missions to receive IV&V services 
that are funded below the funding amounts needed to assure mission 
success?
    Answer. NASA's IV&V Board of Advisors, led by the Chief, Safety and 
Mission Assurance, regularly reviews mission requirements to ensure 
that the Agency's highest priority IV&V requirements are being met. 
NASA policy requires that software IV&V be performed on the following 
categories of projects during at least the project life cycle Phases B 
& C:
    Category 1 Projects as defined in NASA Procedural Requirements 
(NPR) 7120.5, NASA Space Flight Program and Project Management 
Requirements (Human Space Flight, life cycle cost exceeding $1 billion, 
or significant radioactive material).
    Category 2 Projects as defined in NPR 7120.5, NASA Space Flight 
Program and Project Management Requirements that have Class A or Class 
B payload risk classification per NPR 8705.4, Rick Classification for 
NASA Payloads.
    Projects specifically selected by the NASA Chief, Safety and 
Mission Assurance to have software IV&V.
    Question 1(c). If additional funding is required, how does NASA 
provide the necessary support to IV&V to ensure mission success?
    Answer. If necessary to meet mission requirements, additional IV&V 
is funded directly by the mission directorate and program receiving the 
IV&V.
    Question 1(d). If additional funding is required but not available, 
what is NASA's appetite for risk if IV&V is unable to conduct the 
necessary work? For example, would NASA allow SLS to proceed without 
the full IV&V review?
    Answer. As noted above, NASA's IV&V Board of Advisors, led by the 
Chief, Safety and Mission Assurance, regularly reviews mission 
requirements to ensure that the Agency's highest priority IV&V 
requirements are being met and NASA policy specifically requires IV&V 
on projects such as SLS.
    Question 2. Administrator Lightfoot, the Green Bank Radio Telescope 
in West Virginia is truly a national asset and resource and has 
supported NASA's Planetary Science Research mission for many years. In 
fact, the NASA fiscal year 2017 budget document included a callout box 
highlighting the use of Green Bank Telescope and one of your Deep Space 
Network antenna in California to track an asteroid that passed the 
Earth 300,000 miles away. A NASA news story earlier this year 
highlighted the use of the NASA, NSF, Green Bank assets to locate lost 
NASA and Indian satellites. I am proud that West Virginia assets were 
part of this national and global effort.
    I understand that the NASA Planetary Sciences Research and the NASA 
Space Debris programs could benefit from a formalized agreement on 
their use of the facility and resources to provide sustainable 
operations to mutual benefit of NASA, the National Science Foundation, 
and the Department of Defense.
    Can I ask you to look into this and report back to the Committee 
and my staff on the progress in formalizing these arrangements with the 
necessary management and funding to support NASA's continued use of the 
facility?
    Answer. NASA is pleased to be able to continue to use the Green 
Bank Observatory (GBO), which is part of the National Science 
Foundation (NSF) radio astronomy program; however, there is no formal 
agreement or NASA funding from our Planetary Science Division for its 
use. When NASA-supported investigators aspire to use GBO, they apply 
for observatory time under the NSF ``Open Skies'' competitive and peer 
reviewed research program--along with all other potential researchers. 
In addition, NASA-supported investigators have been granted Directors 
Discretionary Time in the past for high interest asteroid radar 
imaging.
    Question 3(a). For the last several years, NASA's Advanced 
Exploration Systems office has been working with U.S. industry to 
develop a robotic lunar lander delivery capability through the Lunar 
CATALYST program. Several companies, including one of the Rust Belt's 
emerging aerospace companies, Astrobotic Technologies, which is just 
over the border in Pittsburgh, have been leveraging NASA's expertise 
across several NASA centers to develop their hardware, software and 
mission planning. This new capability would provide the U.S. with its 
first lunar lander since the end of the Apollo program in 1972--nearly 
50 years ago.
    On May 1, NASA released a Request for Information seeking 
information about American lunar lander providers that could be on 
contract to provide payload delivery services to the Moon for NASA's 
science, space technology and exploration directorates. It's my 
understanding that NASA plans to move forward with a program to solicit 
payloads from across the agency for a potential mission in 2019, the 
50th anniversary of Apollo 11 lunar landing.
    What are the next steps in selecting NASA payloads and a robotic 
lunar lander service for the upcoming mission opportunity?
    Answer. NASA is interested in sending small payloads (<10 kg) to 
the lunar surface, and is considering issuing a solicitation for such 
payload development in fiscal year 2018. This could lead to one or more 
payloads that could be available for commercial transportation to the 
Moon as early as fiscal year 2019. This would not be a dedicated NASA 
mission, but delivery of one or more small NASA payloads that are 
integrated onto a commercial mission, potentially with other, non-NASA 
payloads. NASA has not yet issued a lunar cargo transportation 
solicitation, but is currently assessing options for doing so, with 
awards potentially as early as fiscal year 2018, which may support 
landings as early as fiscal year 2019.
    Earlier this year, NASA released a Request for Information (RFI) to 
industry seeking responses on interest and ability to provide cargo 
transportation services to the lunar surface. This RFI is helping NASA 
perform market research to understand the extent of lunar surface 
transportation capabilities of U.S. industry, including NASA Lunar 
Cargo Transportation and Landing by Soft Touchdown (CATALYST) partners 
and other U.S. business entities.
    Question 3(b). What resources would this Committee need to provide 
Advanced Exploration Systems in order to move forward with this mission 
within this timetable?
    Answer. The President's fiscal year 2018 budget request provides 
sufficient funding for this activity, including the work being 
conducted under Advanced Exploration Systems. The Agency appreciates 
the Committee's continuing support for its efforts.
    Question 4(a). In my State of West Virginia, the NASA Space Grant 
and the EPSCoR programs have supported thousands of students ranging 
from K-12, undergraduate through post-graduate. These students have 
interned at NASA facilities and are now part of your workforce, as 
engineers, computer scientists and the like. I do not believe that 
moving away from that kind of ``hands on'' experience to watching movie 
clips will be a worthy substitute for growing our STEM capability that 
helps NASA and the Nation grow its next generation workforce to help us 
get to Moon and Mars and the Universe.
    Please describe how you plan to replicate the same kind of 
activities in all 50 States and Puerto Rico that Space Grant and EPSCoR 
have supported?
    Answer. The fiscal year 18 President's budget request proposed 
discontinuing both Space Grant and EPSCoR, and relying on the education 
and outreach efforts of other NASA mission directorates to reach 
students across the country. For example, the majority of NASA 
internships and fellowships at NASA Centers are funded outside the 
Office of Education. While the percentage may vary from year to year, 
on average nearly 70 percent of those NASA internships are funded 
outside of the Office of Education.
    Question 4(b). What were the specific issues that could not have 
been addressed and that required elimination the Office of Education 
altogether?
    Answer. NASA continues to support education; however, the Office of 
Education has experienced significant challenges in implementing a 
focused NASA-wide education strategy and is one of the areas that was 
reduced to meet the demands of a tight fiscal environment.
    In the spring of 2016 NASA initiated a Business Services Assessment 
for Education & Outreach at NASA. The assessment identified several 
challenges for the Office of Education in areas such as agency 
oversight and integration, governance structure, and budgetary 
processes.
    Question 5(a). I join my colleagues, Senators Capito and Van 
Hollen, in bipartisan support to maintain the current proven team that 
has been working on the Restore-L mission, a satellite servicing 
mission that seeks to prove satellites can be robotically refueled and 
repaired in low earth orbit (LEO) space.
    Restore-L has the potential to realize significant cost savings for 
satellite missions by lengthening the lifespan of government and 
commercial satellites and providing new methods for spacecraft 
management. It also has promising implications to create a future 
commercial in-space servicing business sector. I am very proud that the 
WV Robotic Technology Center (WVRTC) in Fairmont, West Virginia, is 
supporting NASA as the lead academic partner with the robotic testing 
and technology development for Restore-L.
    In discussions with WVRTC, it appears that there is an alternate 
means of harnessing the work that NASA, WVRTC, the Department of 
Defense's Defense Advanced Research Projects Agency (DARPA), and the 
commercial sector could participate in to maintain U.S. leadership in 
low earth orbit (LEO) and geosynchronous orbit (GEO). The fiscal year 
2018 budget request effectively terminates the LEO work that NASA and 
WVRTC is currently pursuing. I believe that actively maintaining a 
public-academic-commercial partnership is important to maintain this 
global leadership.
    Please provide the Committee with the rationale for determining 
that DARPA has demonstrated the capability of maintaining the cost, 
schedule and technical risk for satellite servicing that the current 
NASA-WVRTC partnership has supported.
    Answer. NASA does not have significant insight into the cost, 
schedule and technical risk of DARPA's satellite servicing activities; 
however, DARPA is seeking to pursue similar satellite servicing 
capabilities that would benefit both GEO and LEO use. NASA does not 
want to pursue an activity that is duplicative of DARPA activity.
    Without cost sharing either by other government agencies or 
commercial industry, this mission cannot be supported within Space 
Technology's existing funding profile without compromising several 
other high priority technology development activities. NASA is looking 
to leverage what interested stakeholders are investing to move toward a 
more robust, collaborative effort. A partnership approach will also 
ensure that satellite servicing capabilities being developed will be 
utilized not only by NASA, but also by industry and other U.S. 
Government agencies. As a result, WVRTC could have the opportunity to 
showcase their capability to a broader range of stakeholders.
    Question 5(b). Please provide the Committee with evidence that the 
commercial sector is capable of assuming satellite servicing in LEO as 
the fiscal year 2018 budget request states.
    Answer. The fiscal year 2018 request states the following: 
Consistent with the fiscal year 2018 budget request, ``GSFC will 
demonstrate robotic servicing of satellite technologies through the 
former Restore-L mission. NASA will transition the Restore-L project to 
reduce its cost and support a nascent commercial satellite servicing 
industry. In addition, the project supports technologies that will 
enhance and enable future science and exploration missions. Key 
technology areas of the project include rendezvous and proximity 
operations sensors, propellant transfer systems, and other robotic 
tools. NASA is pursuing a potential collaboration with the Defense 
Advanced Research Projects Agency (DARPA) and with industry to most 
effectively advance satellite servicing technologies and ensure broad 
commercial application. Additionally, NASA is continuing with the 
Robotic Refueling Mission 3 which focuses on servicing cryogenic fluid 
and xenon gas interfaces and will support future scientific missions as 
humans extend their exploration further into our solar system. Building 
on Robotic Refueling Mission technology demonstrations on ISS, Space 
Technology will advance servicing technologies and partner with 
domestic private enterprise to commercialize the results, establishing 
a new U.S. industry.''
    NASA Space Technology released a Request for Information (RFI) in 
July 2017. Space Technology received formal responses to the RFI that 
indicate an interest among key industry participants in developing and 
demonstrating commercial satellite servicing technologies and 
capabilities in the LEO environment. STMD is currently evaluating the 
viability of these proposals, and will determine the next steps for a 
public-private partnership acquisition strategy consistent with the 
fiscal year 2018 budget request that will enable the commercialization 
of NASA's satellite servicing technologies without compromising several 
other high priority technology development activities.
    Question 5(c). Termination of both the Asteroid Redirect Mission 
and Restore-L within 12 months could have resulted in WVRTC 
experiencing a significant and likely catastrophic loss of expertise 
and talent.
    In managing your institutional relationships, is it typical for 
NASA to end projects in such a drastic manner, especially at 
institutions that are placing significant effort to NASA missions?
    Answer. While NASA will not be continuing the Asteroid Redirect 
Mission, several activities conducted under the Asteroid Redirect 
Mission will continue, including solar electric propulsion and human/
robotic mission integration, as they constitute vital capabilities 
needed for future human deep space missions.
    Likewise, NASA will continue maturing key technology areas of the 
Restore-L project which include rendezvous and proximity operations 
sensors, propellant transfer systems, and other robotic tools within 
ongoing Satellite Servicing efforts proposed in the fiscal year 2018 
budget.
    WVRTC will continue to have opportunities to partner with NASA 
through these and other competitive efforts led by NASA Space 
Technology and other mission directorates throughout NASA.
    Question 5(d). What process does NASA use to ensure that the 
scientific capabilities are not lost due to premature termination of 
long-term projects?
    Answer. In the case of Satellite Servicing, NASA is maintaining the 
satellite servicing scientific and technological capabilities by 
focusing the project on developing critical technologies. The Agency 
plans to partner on demonstrating the technologies by leveraging mature 
industry capabilities such as spacecraft platforms, system integration 
and mission operations.
    In general, NASA routinely evaluates the impact to workforce, 
academic and industrial base as a part of its decisionmaking process 
before terminating a project. NASA policy requires documentation of 
knowledge transfer, data retention, as well as lesson-learned 
requirements to ensure scientific capabilities are not lost due to 
premature termination of long-term projects.
    Question 6(a). On June 23, 2016, southern West Virginia suffered a 
historic and catastrophic flooding event which resulted in the loss of 
23 lives. We are still recovering from that event. Some schools and 
houses are still being re-built. Many communities are still traumatized 
by that event.
    As few months ago, the Committee held a hearing on April 7, 2017 on 
severe weather and national water hazards.
    Given our experience less than a year earlier, I was struck by the 
testimony of one of the witnesses, Ms. Mary Glackin, represented the 
private weather sector company, IBM/The Weather Company. Ms. Glackin 
indicated that NASA's Global Precipitation Mission's data is not being 
reported in a timely enough fashion to allow the weather sector to 
utilize the data for real-time precipitation forecasting. She further 
stated that as a private company, IBM/The Weather Company is reluctant 
to invest in NASA missions because their long-term future are 
uncertain.
    Ms. Glackin then stated that the time and expense of satellite 
missions no longer allows the luxury of having NASA pursue research 
missions and then have NOAA follow on with operations missions. She 
proffered that for small investments, the Global Precipitation Mission 
data could be made available operationally.
    Your testimony states that NASA is waiting for the Decadal Survey 
in 2018 before making decisions on your future Earth Science 
priorities. However, what process does NASA plan to use to address 
requests from the commercial weather sector on heritage technology 
which is purported to have the ability to improve weather forecasts 
now? Do you have the ability and a process for taking these requests 
onboard? What sorts of coordination do you undertake with the requestor 
and with NOAA? How would you fund these requests?
    Answer. Whenever possible NASA designs, funds, and implements 
capabilities into our research satellite missions to provide data as 
rapidly as possible (often in near-real-time) in order to expand the 
value of the NASA measurements and investments for operational and 
commercial users. For example, near-real-time products are assimilated 
routinely by NOAA into their regional and global, numerical and human-
in-the-loop forecasting systems. Some of these products are the 
Moderate Resolution Imaging Spectroradiometer (MODIS) that provides 
near real-time aerosol optical depth (AOD) observations with good 
spatial resolutions and global coverage, and the Atmospheric Infrared 
Sounder (AIRS) onboard the Low Earth Orbiting (LEO) satellite Aqua that 
serves as a reference to inter-calibrate infrared (IR) radiances on the 
Geostationary Operational Environmental Satellite (GOES) Imager and 
provides temperature and moisture profiles and cloud-top parameters.
    Another specific example involves the Global Precipitation 
Measurement Core Observatory (GPM). Thanks to NASA's proactive design, 
GPM downloads data via NASA's Tracking and Data Relay Satellite System 
(TDRSS) every 5 minutes, considerably decreasing the latency of GPM 
precipitation products. NASA makes GPM measurements available in 
multiple formats to serve a variety of non-research users, including 
commercial companies and emergency managers as well as domestic and 
international meteorological agencies. U.S.-based commercial weather 
industry private companies (e.g., Epidemico, Agrible, and aWhere, 
Inc.), the NASA-NOAA-DoD Joint Center for Satellite Data Assimilation 
(JCSDA), and weather prediction agencies around the world routinely use 
GPM data in regional and global prediction systems. GPM's near real-
time products are provided to global operational disaster response 
groups, including the Pacific Disaster Center, the International Red 
Cross, the World Food Programme, and the World Bank. GPM's rainfall and 
flood/landslide products are provided rapidly (processed data often 
available within 3 hours) to other U.S. agencies, including the Federal 
Emergency Management Agency (FEMA), the National Geospatial 
Intelligence Agency, and the State Department. GPM data have been used 
for hurricane and cyclone analysis and forecasting around the world 
since shortly after the launch of the GPM Core Observatory in February 
2014.
    Once missions are on-orbit, NASA has established and funds 
organizations that work with NOAA and commercial users to ensure that 
relevant new products developed by NASA researchers can be applied 
rapidly to support operational needs. For example, NASA's Earth Science 
Division funds the Short-term Prediction Research and Transition 
(SPoRT) Center led by NASA's Marshall Space Flight Center (MSFC) 
specifically to transition unique NASA observations and research 
capabilities to both commercial and government short-term weather 
forecast users to improve regional and local scale predictions. SPoRT 
data and products are available publicly in real-time, and NASA project 
staff work closely with the public and commercial end users to 
integrate these data directly and efficiently into their systems. SPoRT 
often is approached by commercial users, including The Weather Channel 
and other large and small private companies.
    As just one recent example, prior to Hurricane Maria's landfall, 
NASA's SPoRT project responded to a request from NOAA's National 
Weather Service (NWS) Southeast River Forecast Center for satellite-
based quantitative precipitation estimates (QPE) over Puerto Rico, due 
to fears that the island's two Doppler radars would be damaged by the 
storm. In fact, both radars sustained significant damage, leaving 
hydrologic forecasters without a way to determine rainfall amounts 
needed for flood forecasting. SPoRT quickly established two websites 
providing public access to a variety of SPoRT data through open-GIS web 
mapping services readily used by anyone with web access. SPoRT will 
continue to support dissemination of near real-time satellite 
precipitation products for as long as the NOAA radars in Puerto Rico 
are offline; and will continue to investigate additional ways that 
these data can be integrated into operations to support flood 
forecasting.
    Beginning more than 5 years ago, NASA put in place an innovative 
``Early Adopter'' (EA) program for nearly every NASA's Earth-observing 
research missions under development. The EA program ensures that non-
research users--private sector as well as government--are aware of the 
mission capabilities prior to launch, and have opportunities to 
influence the design of NASA's data products in order to expand their 
efficient use once the mission is on orbit. The NASA EA Program 
provides specific support to Early Adopters in pre-launch applied 
research to facilitate feedback on satellite based products pre-launch, 
and accelerate the use of products post-launch. The SMAP Early Adopters 
Project comprised more than fifty organizations, including John Deere 
Inc., Atmospheric and Environmental Research Inc., USDA National 
Agricultural Statistical Service, USDA Foreign Agricultural Service, 
U.S. Army Engineer and Development Center (CRREL and GSL), Air Force 
Weather Agency, Agrisolum Ltd U.K., StormCenter Communications Inc., 
Exelis Visual Information Solutions, Google Earth Engine, and Integra 
LLC.
    Question 6(b). Similarly, for technology not included in the 
Decadal Survey review, how does NASA evaluate how and whether to 
provide resources to help the weather community meet its data needs? 
For example, if the commercial sector or NOAA indicated that they need 
NASA technical expertise on a specific measurement that could improve 
weather forecasting multi-fold, but this measurement was not included 
in the Decadal Survey list, how would NASA evaluate whether to put 
resources into working on this?
    The five Earth Science missions that are being terminated with the 
fiscal year 2018 budget request had once been approved by earlier 
National Academies Decadal Survey reviews.
    Answer. Both the 2007 Decadal Survey and the forthcoming 2017 
Decadal Survey are co-sponsored by NOAA and USGS as well as NASA, and 
both surveys address community recommendations regarding priority needs 
for those operational agencies as well as for NASA. Decadal 
recommendations therefore are not solely focused on the needs of the 
research communities, nor only on the NASA Earth science and 
applications program--NOAA needs are specifically addressed by the 
National Academies' Decadal Surveys. Furthermore, one of the two co-
Chairs of the 2017 Decadal Survey is Dr. William Gail, co-founder and 
Chief Technology Officer of the Global Weather Corporation, a private-
label provider of precision weather forecast information to the energy, 
transportation, and media sectors.
    While Decadal Survey recommendations play a prominent role in 
setting priorities for NASA's Earth Science Division (ESD) satellite 
mission development, they are not the sole source of priority 
recommendations. Following release of the 2007 initial Earth Decadal 
Survey, NASA's ESD generated the 2010 document ``NASA's Plan for a 
Climate-Centric Architecture for Earth Observations and Applications 
from Space,'' which combined administration and congressional 
priorities with Decadal recommendations and realistic mission cost 
estimates to yield an executable plan for the ESD mission portfolio. To 
ensure accuracy and responsiveness to the needs of the other Federal 
Agencies, the Climate-Centric Architecture document was formally 
reviewed by OSTP and the 13-agency US Global Change Research Program 
prior to adoption. A similar ``roadmapping'' process is anticipated for 
the upcoming 2017 Decadal Survey.
    Complementing the Decadal process, NASA's ESD formally solicits and 
responds to product requests from other civil Federal agencies. Since 
2015, NASA has worked with the U.S. Group on Earth Observations' 
(USGEO) Satellite Needs Working Group (SNWG) to assess requests by 
other Federal agencies for specific satellite-based Earth observation 
data and information products. In late 2016 NASA received a total of 
187 product requests from 17 U.S. agencies. Some requests specifically 
addressed improvements to weather forecasting products. NOAA, as a 
USGEO member, provided requests for additional focused information 
products which have been analyzed by NASA; NASA evaluation indicated 
that production of some 47 specific requested products is possible in 
the near-term.
    Finally, NASA's competitive Earth Venture (EV) class experimental 
(non-operational) mission program develops cost-constrained missions, 
instruments, and suborbital investigations providing innovative 
approaches to rapidly address Earth observation needs using new 
technologies. To date, several of the selected Venture Class missions 
address the needs of the commercial and governmental meteorological 
communities. The Cyclone Global Navigation Satellite System (CYGNSS) 
mission launched in December 2016 is a constellation of 8 small-
satellites which aims to improve hurricane forecasting by measuring 
air-sea interactions near the core of tropical cyclones, using Global 
Positioning System (GPS) signals that have been reflected from the 
ocean surface.
    Another Venture Class mission in development called TROPICS (Time-
Resolved Observations of Precipitation structure and storm Intensity 
with a Constellation of Smallsats) will launch a constellation of 
CubeSats to provide measurements that will complement the tropical 
vertical profiles on NOAA operational spacecraft.
    Question 6(c). What process and criteria does NASA use to evaluate 
when to press ahead with Decadal Survey mission versus when to 
terminate work? I imagine that substantial resources have been spent on 
developing, launching, and operating some of these five missions that 
will now be lost forever.
    Answer. To ensure responsible management of taxpayer funds, all 
NASA missions in development are evaluated through a formal series of 
life cycle program/project milestone and key decision point reviews. 
This process is codified in the NASA Procedural Requirement (NPR) 
7120.5, ``Space Flight Program and Project Management Requirements,'' 
and is designed to ensure that missions remain on cost and schedule and 
that any changes in planned capability and risk are evaluated and 
considered. In extraordinary circumstances, NASA can call for a review 
(e.g., technical, cost, schedule, termination, continuation, etc.) at 
any point in the mission life.
    Because agency, national, administration, and congressional 
priorities and budgets can change throughout the development lifetime 
of a mission, and because technical development challenges and 
scientific breakthroughs can alter the benefits and costs for 
particular missions within the context of the overall Earth Science 
Division, NASA, and Federal agency activities, mission development 
schedules can be altered or even terminated prior to launch. 
Termination decisions always are coordinated closely between NASA and 
the Executive Office of the President, and are reflected and justified 
through the annual submission of the President's budget request.
    The fiscal year 2018 President's budget request proposes 
termination of four Earth science missions (OCO-3, PACE, RBI, CLARREO-
PF) that are presently in development. OCO-3 was not specifically 
identified in the previous decadal survey, and the PACE mission 
incorporates select measurement capabilities from a tier-2 decadal 
survey mission. The CLARREO Pathfinder was early in development and 
would have validated the technology for the CLARREO decadal survey 
mission. The RBI continues to experience technical and cost challenges.
    Also proposed is an end for NASA research and analysis activities 
related to the Earth-observing EPIC and NISTAR instruments presently 
operating on-board the orbiting DSCOVR satellite. These instruments 
were not mentioned in the previous decadal survey and were only taken 
out of storage when the DSCOVR mission was revived as a NOAA space 
weather mission.
    The NASA Authorization Acts of 2005 and 2010 mandate that ESD's on-
orbit missions that are beyond their design lifetime be evaluated for 
continuation every 2 years through a process known as the ``Senior 
Review.'' While endorsing the fundamentals and NASA's implementation of 
Senior Reviews, a 2016 report from the National Academies recommended 
that NASA work with Congress to change the review cadence to a 3-year 
cycle to reduce the burden and improve the overall efficiency of NASA's 
mission extension process; the NASA Transition Authorization Act of 
2017, enacted in March 2017, official changed the cadence to a 3-year 
cycle.
    Question 7(a). Administrator Lightfoot, it is fitting that NASA 
would recognize International Asteroid Day on June 30, the day after 
the hearing before the Appropriations Committee. Unfortunately, the 
news coincides with the administration's decision to terminate the 
Asteroid Redirect Mission (ARM).
    Can you document for the Committee how NASA intends to reuse the 
work and knowledge gained from the ARM program to date? How much of 
this work will be lost forever?
    Answer. The Asteroid Redirect Mission (ARM) leveraged work already 
going on in the Human Exploration and Operations Mission Directorate 
(HEOMD) (the development of the Space Launch System and Orion Crew 
Vehicle), the Science Mission Directorate (SMD) (the detection and 
characterization of Near Earth Objects), and the Space Technology 
Mission Directorate (STMD) (the development of solar-electric 
propulsion (SEP), robotics, and proximity operations systems). These 
efforts will continue, and in particular, the work conducted under the 
Asteroid Redirect Robotic Mission (ARRM) in the area of SEP will be 
leveraged to support NASA's exploration efforts in cislunar space. 
Robotics and proximity operations systems on ARM leveraged from 
satellite servicing are also expected to continue.
    As part of its Next Space Technologies for Exploration Partnerships 
(NextSTEP) Broad Agency Announcement (BAA) (and specifically, Appendix 
C: Power and Propulsion Element (PPE) Studies), NASA has issued a 
solicitation for U.S. industry-led studies for an advanced SEP vehicle 
capability. The studies will help define required capabilities and 
reduce risk for the 50 kilowatt-class SEP vehicle needed for the 
Agency's near-term exploration goals. The PPE concept leverages 
requirements and concept design work accomplished under ARM as a point 
of departure, allowing the studies to focus primarily on those areas of 
difference. NASA plans to demonstrate a power and propulsion capability 
after launching the PPE together with the Orion spacecraft on top of 
the Space Launch System rocket on the first flight with crew, which 
will carry humans farther into space than ever before. The system 
envisioned for farther-term deep space exploration missions involves a 
higher power SEP capability in the 300-kW class. PPE will help to 
develop, integrate and demonstrate these advanced component 
technologies and allow extensibility to the higher power system.
    As NASA moves out beyond low-Earth orbit and into deep space, we 
will need to create a sustainable infrastructure to support the 
exploration of a variety of destinations in the decades ahead. SEP is 
an essential component of this infrastructure that will enable us to 
move crew and cargo across vast distances, and efficiently and 
affordably place assets into position prior to the arrival of humans.
    Question 7(b). Has NASA included asteroid resource utilization in 
its exploration road map, specifically as a point to reach Moon and 
Mars?
    Answer. NASA's Human Exploration Roadmap, directed in Section 
432(b) of the NASA Transition Authorization Act of 2017 (Public Law 
115-10), is currently in development. The Roadmap will provide a 
detailed plan for our human spaceflight program through the 2030s, and 
the Agency looks forward to providing it to Congress in the near 
future.
                                 ______
                                 
            Questions Submitted by Senator Chris Van Hollen
      fiscal year 2018 budget reduction for hubble space telescope
    Question 1. And, Mr. Chairman and Madam Ranking Member, I look 
forward to working with you as we consider this budget because in 
addition to those cuts, which I think will have very harmful impacts, 
there is also a cut to the Hubble Space Telescope program. There is 
some language in there saying, ``We're going to find efficiencies,'' 
with no indication of really what that is. So it sounds like really 
another example frankly of you got a number, you just said we're going 
to cut this by $15 million, and we're going to find efficiencies. Does 
that kind of sum it up?
    Mr. Lightfoot. I'm not familiar about--I'II have to go back and 
look about the Hubble cut. I may have missed that one in what we've 
got. So I will take that one for the record and let you know.
    Answer. NASA determined, in consultation with the Hubble project 
office at the Goddard Space Flight Center and the Space Telescope 
Science Institute in Baltimore, that a reduction of $15 million in the 
fiscal year 2018 budget request would not adversely affect the Hubble 
Space Telescope program.
    For the last several years, the Hubble team has successfully 
enacted a variety of cost saving measures, described below, which have 
reduced the funds expended in each year well below the total 
appropriated and substantially increased the amount of funds available 
to carry in to the next budget year. These ``carry in'' funds are 
sufficient to absorb the $15 million reduction in the fiscal year 2018 
budget request, and also the costs for the Hubble Fellowship program 
that were previously funded within the Astrophysics Supporting Research 
and Technology (SR&T) programs, without impacting planned operations. 
In conjunction with the Hubble Fellowship program moving into the 
Hubble program budget, the number of fellows appointed annually will be 
decreased. This will restore the historical balance between research 
grants and fellowships.
    The cost saving measures implemented during the past several years 
include new synergies with the James Webb Space Telescope program which 
has led to staff reductions and cost savings without loss of expertise 
or capability. Automation of complex flight operations has reduced on-
site staffing from around-the-clock, every day coverage to a 40-hour 
work week. Overlap of the Hubble and Webb instrument teams is ensuring 
knowledge transfer and efficient workforce usage, including the 
transfer of well-developed calibration processes and testing techniques 
and tools. The Space Telescope Science Institute is under contract to 
manage science operations and data management for both Hubble and Webb, 
using the same data archiving process to minimize development costs and 
reduce user learning curves. Hubble's well-respected time allotment 
process for observations will be adopted by Webb, including the use of 
the same procurement processes. Hubble staffing reductions are 
continuing through this year, so in fiscal year 2017 staffing has 
reached the base level required to run the observatory efficiently 
while handling observatory aging in a proactive manner.
    The projected new obligation authority includes all required 
science operations, including but not limited to science research 
grants award and management, observer user support, instrument 
calibration, science data pipeline management, ground system 
maintenance support, and archive data management for inclusion in the 
Mikulski Archive for Space Telescopes. All required mission operations 
are also covered, including flight operations, network operations and 
security, anomaly resolution, operations building and systems 
infrastructure maintenance, flight dynamics and risk analysis, and 
mission unique ground test facilities. This budget allows for science 
grants for General Observer/Archival Researchers and Hubble Fellows to 
be maintained at current levels each year.
    In summary, by taking advantage of available carry-in funds built 
up through the implementation over the past several years of the 
efficiencies described above, the Hubble project can operate with 
reduced new appropriations in fiscal year 2018 and no changes to its 
world-class mission and science operations.
     cost analysis of government vs. commercial satellite servicing
    Question 2. If you could please get this subcommittee a cost 
analysis about how that actually will be more cost effective given the 
investment we've already made in Restore-L, can you provide that for 
the subcommittee?
    Mr. Lightfoot. We'll be glad to. Yes
    Answer. Space Technology has seen great success through the use of 
public private partnerships to develop a number of technologies, 
resulting in a minimum of a 25 percent contribution from private 
businesses, combined with NASA investments, to make progress on 
capabilities of mutual interest. Consistent with its stakeholder-based 
investment strategy, STMD is in the process of identifying potential 
partners for Restore-L beginning with the recently issued In-Space 
Satellite Servicing Capability Request for Information (RFI). The RFI 
resulted in 3 responses with information including development 
approaches, desired NASA contributions (i.e. expertise, access to 
facilities, etc), and business plans for implementation and operations 
of a commercial satellite servicing capability. We are evaluating the 
responses received to inform a possible solicitation, which would 
competitively award partnerships. Without a partnership approach, the 
Restore-L mission would cost the government more than $750 million to 
complete based on the KDP-B baseline for fiscal year 2018-2022. NASA is 
hoping to leverage commercial interest in this capability to 
significantly reduce that cost to the taxpayer, while developing a 
satellite servicing industry that would meet the needs of both 
government operated and privately operated satellites.
    Question 3. This Committee has taken an interest in the Asteroid 
Impact and Deflection Assessment Double Asteroid Redirect Test (AIDA-
DART) over the past two fiscal years. In fiscal year 2016, the CJS 
Statement of Managers that accompanied the Omnibus included language 
requesting that NASA identify total resources for DART in future 
requests and similar language was included by reference in the fiscal 
year 2017 Omnibus. However, not only did the fiscal year 2018 budget 
request not include this information, it did not mention DART in the 
narrative either. Could you provide the Committee with an update on 
this program including its funding for fiscal year 2018?
    Answer. AIDA-DART was supposed to have been a collaboration between 
NASA and the European Space Agency (ESA). However, ESA funding for the 
AIDA component of the mission has not materialized.
    After a successful Key Decision Point B (KDP-B) review earlier this 
year, the DART mission is currently in Phase B of the development cycle 
and funded through Preliminary Design Review (March 2018). Should DART 
successfully complete its Phase B activities and be confirmed at Key 
Decision Point C (KDP-C), and should sufficient fiscal year 2018 
funding be available, then NASA will commit to a schedule and life 
cycle cost for the mission.

                         CONCLUSION OF HEARINGS

    Senator Shelby. We appreciate you appearing before us 
today. The subcommittee now stands in recess subject to the 
call of the Chair. Thank you.
    Mr. Lightfoot. Thank you.
    [Whereupon, at 11:00 a.m., Thursday, June 29, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
